<html>
<title> - MISSION CRITICAL: CARING FOR OUR HEROES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
                MISSION CRITICAL: CARING FOR OUR HEROES

=======================================================================

                             JOINT HEARING

                               before the

                         SUBCOMMITTEE ON HEALTH

                                and the

                SUBCOMMITTEE ON TECHNOLOGY MODERNIZATION

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        WEDNESDAY, MAY 22, 2019

                               __________

                           Serial No. 116-12

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
 
 


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                          ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 39-916               WASHINGTON : 2021 
         
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   MARK TAKANO, California, Chairman

JULIA BROWNLEY, California           DAVID P. ROE, Tenessee, Ranking 
KATHLEEN M. RICE, New York               Member
CONOR LAMB, Pennsylvania, Vice-      GUS M. BILIRAKIS, Florida
    Chairman                         AUMUA AMATA COLEMAN RADEWAGEN, 
MIKE LEVIN, California                   American Samoa
MAX ROSE, New York                   MIKE BOST, Illinois
CHRIS PAPPAS, New Hampshire          NEAL P. DUNN, Florida
ELAINE G. LURIA, Virginia            JACK BERGMAN, Michigan
SUSIE LEE, Nevada                    JIM BANKS, Indiana
JOE CUNNINGHAM, South Carolina       ANDY BARR, Kentucky
GILBERT RAY CISNEROS, JR.,           DANIEL MEUSER, Pennsylvania
    California                       STEVE WATKINS, Kansas
COLLIN C. PETERSON, Minnesota        CHIP ROY, Texas
GREGORIO KILILI CAMACHO SABLAN,      W. GREGORY STEUBE, Florida
    Northern Mariana Islands
COLIN Z. ALLRED, Texas
LAUREN UNDERWOOD, Illinois
ANTHONY BRINDISI, New York
                 Ray Kelley, Democratic Staff Director
                 Jon Towers, Republican Staff Director

                         SUBCOMMITTEE ON HEALTH

                 JULIA BROWNLEY, California, Chairwoman

CONOR LAMB, Pennsylvania             NEAL P. DUNN, Florida, Ranking 
MIKE LEVIN, California                   Member
ANTHONY BRINDISI, New York           AUMUA AMATA COLEMAN RADEWAGEN, 
MAX ROSE, New York                       American Samoa
GILBERT RAY CISNEROS, Jr.            ANDY BARR, Kentucky
    California                       DANIEL MEUSER, Pennsylvania
GREGORIO KILILI CAMACHO SABLAN,      W. GREGORY STEUBE, Florida
    Northern Mariana Islands

                SUBCOMMITTEE ON TECHNOLOGY MODERNIZATION

                     SUSIE LEE, Nevada, Chairwoman

JULIA BROWNLEY, California           JIM BANKS, Indiana, Ranking Member
CONOR LAMB, Pennsylvania             STEVE WATKINS, Kansas
JOE CUNNINGHAM, South Carolina       CHIP ROY, Texas

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

                            C O N T E N T S

                              ----------                              

                        Wednesday, May 22, 2019

                                                                   Page

Mission Critical: Caring For Our Heroes..........................     1

                           OPENING STATEMENTS

Honorable Julia Brownley, Chairwoman, Subcommittee on Health.....     1
Honorable Susie Lee, Chairwoman, Subcommittee on Technology 
  Modernization..................................................     3
Neal Dunn, Ranking Member, Subcommittee on Health................     4
Jim Banks, Ranking Member, Subcommittee on Technology 
  Modernization..................................................     5

                               WITNESSES

Dr. Steven Lieberman, M.D., Acting Principal, Deputy Under 
  Secretary for Health, Veterans Health Administration...........     6
    Prepared Statement...........................................    35

        Accompanied by:

    Dr. Elyse Kaplan, PSY.D, Deputy Director, Caregiver Support 
        Program, Veterans Health Administration

    Dr. Alan Constantian, Ph.D., Deputy Chief Information 
        Officer, Account Management, Office of Information and 
        Technology, Department of Veterans Affairs

Ms. Carol C. Harris, Director for Information Technology 
  Acquisition Management, Government Accountability Office.......     8
    Prepared Statement...........................................    37

Dr. Wendell Ocasio, M.D., Chief Medical Officer, AbleVets........    24
    Prepared Statement...........................................    43

Mr. Ken Beecher, Director, Acumen Solutions......................    26
    Prepared Statement...........................................    44


                MISSION CRITICAL: CARING FOR OUR HEROES

                              ----------                              


                        Wednesday, May 22, 2019

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittees met, pursuant to notice, at 10:06 a.m., 
in Room 210, House Visitors Center, Hon. Julia Brownley 
[Chairwoman of the Subcommittee on Health] presiding.
    Present from Subcommittee on Health: Representatives 
Brownley, Lamb, Levin, Brindisi, Rose, Cisneros, Dunn, 
Radewagen, Barr, and Steube.
    Present from Subcommittee on Technology Modernization: 
Representatives Lee, Cunningham, Banks, and Roy.
    Also Present: Representative Roe.

 OPENING STATEMENT OF JULIA BROWNLEY, CHAIRWOMAN, SUBCOMMITTEE 
                           ON HEALTH

    Ms. Brownley. Good morning. Thank you all for joining us 
today for a hearing to discuss the Information Technology 
systems that support two of VA's most crucial programs, the 
General Caregiver Support Program, and the Program of 
Comprehensive Assistance for Family Caregivers.
    While the VA provides essential health care services to 
extremely disabled veterans, it is their caregivers that 
provide the day-to-day services needed to sustain their well-
being. Caregivers are the most important component of 
rehabilitation and maintenance for our veterans with severe 
injuries and their welfare directly impacts the quality of care 
veterans receive.
    The VA Program of Comprehensive Assistance for Family 
Caregivers is a one-of-a-kind in the United States. It is the 
only integrated program that is required to provide health 
care, a stipend, travel expenses, mental health care, respite 
care, and injury-specific training. Without these supported 
services, the quality of care provided by the caregiver is 
likely to be compromised, and the veteran is more likely to 
experience frequent medical complications and require expensive 
long-term institutional care.
    Veterans who qualify for the caregiver program are 
medically stable enough to live outside an institution, but 
lack the functionality to care for themselves independently.
    When the program started in 2011, it was limited to 
veterans who were severely injured on or after September 11th, 
2001. It was estimated only that 4,000 veterans would apply: 
however, over 45,000 applied, clearly demonstrating the 
critical need for this program. Today, there are 20,000 
participants.
    Given the unique nature of the program and the larger-than-
anticipated demand, VA has encountered several complications, 
including staff shortages, unclear procedures, and, the reason 
for today's hearing, an antiquated IT system.
    For the most part, veterans participating in the 
Comprehensive Program have reported positively on their 
experience. Their caregivers are better equipped to serve the 
veterans and they experience fewer financial and emotional 
stressors due to the availability of respite mental health care 
and a monthly stipend.
    However, in 2014 the GAO released a report highlighting the 
degree of ineptitude of the IT system supporting the caregiver 
program and recommended VA pursue a replacement system. VA 
concurred with the recommendations and, 5 years later, nothing 
has changed. It is deeply frustrating that 5 years after the 
GAO report these IT problems persist. It is even more 
frustrating that the only thing standing between pre-9/11 
veterans and their caregivers and the services they need is 
this IT program.
    With the passage of the MISSION Act, Congress finally 
rectified 8 years of inequality between pre and post-9/11 
veterans, and made pre-9/11 veterans eligible for the program 
upon the implementation and certification of a competent IT 
system. The implementation deadline was October of 2018; VA 
missed this date. Due on October 1 of this year is a report to 
Congress that includes the system's full certification. I hope 
very much that VA will assure this Subcommittee of their 
readiness to meet that deadline and state when the first phase 
of veterans, those injured before 1975, will be able to apply 
for the program.
    I had also hoped to hear from a representative of 
Salesforce, the developer of the off-the-shelf system VA has 
purchased to replace the current IT system, but to the 
Committee's--to my disappointment and the Committee's 
disappointment, they decided not to come.
    What this Subcommittee hopes to learn today is twofold. The 
first, why after 5 years has VA been unable to replace a faulty 
IT system; and, second, what reassurances can you offer pre-9/
11 veterans and caregivers that continue to wait for access to 
the care and services they need?
    As our largest cohort, when Vietnam-era veterans age, the 
demand for long-term care will grow significantly. Without the 
caregiver program, these aging, severely injured veterans will 
require the most intensive and expensive institutional care. I 
would remind VA that the amount expended on disabled veterans 
in these institutional settings can be anywhere from $56,000 to 
$400,000 per veteran per year. The average cost to keep a 
veteran at home in the caregiver program is only $19,000 per 
veteran per year. By providing caregivers the means to keep 
veterans at home with family, both the veteran and their 
families will live healthier lives and delay higher costs. It 
is simply a win-win: our veterans and their families are happy, 
and the VA saves a significant amount of money that can be 
invested into other critical veteran programs.
    For decades, pre-9/11 caregivers have sacrificed their own 
well-being in order to support the health and well-being of 
their loved ones, who also sacrificed for us and for our 
country. These caregivers have gained skills they never planned 
to need. They are the reason their children were raised with 
their veteran mother or father, the reason neighborhoods and 
communities and families stayed whole. The caregivers and our 
Nation's veterans, we need this program, and the caregivers and 
our Nation's veterans, we need this program now. We made a 
promise, now let's keep it.
    Ms. Brownley. So I understand we have caregivers in the 
audience today, and I want to thank each and every one of you 
for all of your sacrifices and for being here today for this 
important meeting.
    I ask also for unanimous consent for other Committee 
Members to join the dais for today's hearing. My understanding 
is there are a few other members who may join us today.
    And, with that, I will turn over to Ms. Lee for her opening 
remarks. I recognize Chairwoman Lee for 5 minutes.

  OPENING STATEMENT OF SUSIE LEE, CHAIRWOMAN, SUBCOMMITTEE ON 
                    TECHNOLOGY MODERNIZATION

    Ms. Lee. Thank you, Chairwoman Brownley. Thank you all for 
being here and, most importantly, thank you to the caregivers 
who are here as well.
    Congress has given the Department of Veterans Affairs a big 
mandate with the MISSION Act, because the responsibility that 
we have to veterans and their families is so great. They have 
sacrificed so much and in exchange we promise to provide them 
with the best health care and services we possibly can. No 
reasonable person can pretend that this is an easy task, but we 
shouldn't make it harder than it needs to be. Yet time and 
again we sit here and discuss failure, and we are assured that 
lessons have been learned and that things would get fixed, and 
here we are one more time.
    At what point will the VA fix the systematic problems on 
how it buys, implements, and manages IT? When is the VA going 
to commit to getting it right and not make the same mistakes 
with weak governance, inadequate program management, and poor 
requirements development? Repeatedly making these same mistakes 
is frustrating to everyone involved and also damaging to the 
very people we intend to help. It is certainly incredibly 
frustrating for this Committee.
    It is clear that there were common themes on how the VA 
fails at IT. At the top of the list is joint governance of IT 
acquisition and implementation between the Office of 
Information and Technology and the other VA program offices. 
Who is leading? Who is accountable? I have the exact same 
questions about every VA IT program, from Caregiver, to the GI 
Bill, to the Electronic Health Record Modernization.
    In the case of the caregiver program, we have one system 
that was too small for the program; a failed effort to rescue 
that system; and the complete scrapping of another system after 
it was developed, accepted, and paid for by the VA due to 
problems with user acceptance testing. Now, we embark on the 
fourth effort to build an application with an uncertain 
timeline and uncertain deliverables.
    This new application, the Caregiver Record Management 
Application, CARMA, is being developed on a Salesforce 
platform. It was reported last week that this platform is the 
subject of serious scrutiny in the technology community after 
improper access was given to company employees, leading to a 
forced widespread outage. It is unclear what the impact is to 
the VA, but I hope the VA and the implementing contractor, 
Acumen Solutions, is able to provide information about this 
today.
    Before the platform issue was known, we invited Salesforce 
to testify today, but they declined to do so. This is 
completely unacceptable. Oversight is not optional, especially 
after $10 million in three failed tries. As the Committee 
responsible for overseeing the implementation of VA programs, 
we must have a meaningful opportunity to hear from everyone 
involved, whether it is the VA, the IG, the GAO, veterans 
themselves, VSOs, and certainly the contractors that stand to 
profit from their work with the VA.
    Furthermore, because these programs impact veterans, their 
families, taxpayers, public oversight of these programs is 
required.
    I said at our recent hearing at the Forever GI Bill 
implementation that I hoped the VA leadership would take that 
IT failure as an opportunity to improve its other IT programs. 
I want to understand if the VA is taking that heart or if it 
has something substantive to offer today and how it is going to 
get the caregiver program back on track. Our veterans are 
waiting for this critical benefit, they should not have to wait 
even longer because the VA can't get the IT right. Let's get 
this right, and I hope we can have an open and productive 
conversation on how we can do so.
    I thank all of the witnesses for being here and I look 
forward to your testimony.
    Thank you. I yield back.
    Ms. Brownley. Thank you, Chairwoman Lee. And I just want to 
recognize the Ranking Memberof the Full Committee, Dr. Roe, is 
here. Welcome. Thank you for joining us.
    I would now like to recognize Ranking Member Dunn for his 
opening remarks.

OPENING STATEMENT OF NEAL DUNN, RANKING MEMBER, SUBCOMMITTEE ON 
                             HEALTH

    Mr. Dunn. Thank you, Chairwoman Brownley. It is a pleasure 
to be here today with you, and with Chairwoman Lee and with 
Ranking Member Banks from the Subcommittee on Technology 
Modernization.
    We are here this morning to discuss continued programmatic 
and IT challenges in the Veterans Affairs Caregiver Support 
Program. The Caregiver Support Program encompasses a general 
support program for veterans of all eras and a stipend-based 
family caregiver program for post-9/11 veterans only. There is 
no other benefit like this in the government or, that I am 
aware, in the private sector either; it is truly unique.
    Given that the VA is blazing trails with respect to this 
program, it is unsurprising that there would be some growing 
pains; however, it is disappointing that 8 years after the 
program was implemented the VA is still experiencing serious 
problems with the basic program functions, like consistency in 
eligibility determinations and the lack of a functional 
workflow management system.
    Many of the issues that we will be discussing this morning 
can be traced to a Government Accountability Office report that 
was issued in September of 2014; that is 5 years ago. I will 
leave it to my colleague and friend from Indiana, the Ranking 
Member of the Subcommittee on Technology, Mr. Jim Banks, to 
discuss the details of the IT system failures that bring us 
here today, but suffice it to say it is unacceptable that 5 
years have passed and the program still doesn't have the IT 
system that it needs. That absence is even more concerning 
given that Congress required the VA to expand the Family 
Caregiver Program to family caregivers of veterans of all ages 
and eras with the enactment of the MISSION Act.
    Expansion is tied to a successful deployment of the IT 
solution, so the longer it takes the Department to put a 
workable IT system in place, the longer the pre-9/11 veterans 
will have to be waiting to use it.
    We saw the failed rollout of the Forever GI Bill last fall 
and how student veterans suffered when the VA rushed to put a 
system in place that wasn't ready for prime time; I don't want 
us to make that mistake again. That said, I do want the VA to 
recognize that tens of thousands of veterans and caregivers are 
relying on them and awaiting for them with an approach of this 
program, so I want a new sense of urgency in that.
    And let me say, I am grateful to our witnesses and to my 
colleagues from both Subcommittees for being here this morning. 
And, Madam Chair, I yield back.
    Ms. Brownley. Thank you, Dr. Dunn.
    And I now recognize Ranking Member Banks for his opening 
remarks.

OPENING STATEMENT OF JIM BANKS, RANKING MEMBER, SUBCOMMITTEE ON 
                    TECHNOLOGY MODERNIZATION

    Mr. Banks. Thank you, Madam Chair.
    The Family Caregiver Program is an important lifeline for 
about 20,000 post-9/11 veterans. As my colleagues have already 
said, Congress believed the eligibility disparity among 
different eras of veterans was unfair and the MISSION Act 
eliminates it. But like so many other key programs, the Family 
Caregiver Program relies on an IT system, and that system is on 
the rocks. If it feels like we have been here before, it is 
because we have.
    In some ways, this is a similar situation to the Forever GI 
Bill and the VBA Education Benefits Processing systems, but 
what is different this time is that we recognize the risk in 
advance. Expansion of the Family Caregiver Program is phased, 
and it is contingent on the IT system being ready to handle it. 
It would be unforgivable to push through the expansion with the 
management capability and systems to handle it. As we have seen 
before, that could result in undermining the program for 
existing beneficiaries.
    I am here to determine how close we are getting the IT 
system over the finish line and whether I have confidence in 
VA's decisions. In fact, it isn't one system, but a confusing 
succession of four: the Caregiver Application Tracker, or CAT, 
database that has been in use since 2011; the ill-fated CAT 
rescue between 2015 and '18; the Caregiver Tool, or CareT, 
developed beginning in 2015 and abandoned earlier this year; 
and, finally, the Caregiver Record Management Application, or 
CARMA, which is just beginning.
    CAT is clearly inadequate and needs to be replaced, there 
is no doubt about that, but I am not sure if that is because of 
inherent design flaws or an operational failure to maintain it 
and the integrity of its data.
    Despite a series of staff-level meetings in preparation for 
this hearing, we still don't know very much about CareT. VA 
invested 3 years and several million dollars in CareT and 
expressed confidence in it, until the assessment suddenly 
became negative at the very end. My understanding is CareT 
still exists in a nearly complete state on a VA test server, 
but it is slated to disappear in the next few weeks.
    Now there is CARMA, the latest and I hope final effort to 
develop a more reliable and streamlined system, this time based 
on the Salesforce platform. I have a lot of questions about 
CARMA. VA has weighed the pros and cons, and decided the new 
capabilities that will eventually be gained outweigh the costs 
of going back to the drawing board. It is a big decision and I 
want to make sure to understand what went into it.
    I appreciate our witnesses today from VA, GAO, and the 
companies being here. We need to hear from each of you to 
understand why things happened in the past, what the 
significant differences are among the various systems, and what 
the critical path looks like to get CARMA in place to 
accommodate the caregiver expansion.
    With that, Madam Chair, I yield back.
    Ms. Brownley. Thank you, Mr. Banks.
    We have two panels for today's hearing. On the first panel 
is Dr. Steven Lieberman, Acting Principal Deputy Under 
Secretary for Health at the Veterans Health Administration. Dr. 
Lieberman is accompanied by Dr. Elyse Kaplan, Deputy Director 
of Caregiver Support Program, as well as Dr. Alan Constantian, 
Deputy Chief Information Officer in the Office of Information 
and Technology.
    Also here today is Ms. Carol Harris, Director of 
Information Technology Acquisition Management from the 
Government Accountability Office.
    I now recognize Dr. Lieberman for 5 minutes. Welcome.

                 STATEMENT OF STEVEN LIEBERMAN

    Dr. Lieberman. Thank you. Good morning, Chairwoman Brownley 
and Chairwoman Lee, Ranking Member Dunn and Ranking Member 
Banks, and members of the Subcommittee. Thank you for the 
opportunity to discuss--
    Ms. Brownley. Is your mike on, Dr. Lieberman?
    Dr. Lieberman. It is pushed in. You can't hear me?
    Thank you for the opportunity to discuss VA's Caregivers 
Support Program relative to the MISSION Act of 2018 and its 
supporting information and technology systems. I am accompanied 
today by Dr. Elyse Kaplan, Deputy Director, VA Caregiver 
Support Program, and Dr. Alan Constantian, Deputy Chief 
Information Officer for Account Management and Acting Deputy 
Chief Information Officer, Account Manager for Health.
    Since 2011, VA has provided groundbreaking work in this 
country to deliver unprecedented benefits and services to 
caregivers, so that the veterans they support may maintain 
their highest level of health, quality of life, and 
independence, and enable veterans to age in place by remaining 
in their homes for as long as possible. They really do amazing 
work.
    The Program of Comprehensive Assistant for Family 
Caregivers is currently limited to eligible veterans who 
incurred or aggravated a serious injury in the line of duty on 
or after September 11th, 2001, and their family caregivers. 
Under the MISSION Act, the Program of Comprehensive Assistance 
will expand to eligible veterans when VA certifies that it has 
fully implemented the required IT systems.
    Expansion will occur in two phases, beginning with eligible 
veterans who incurred or aggravated a serious injury in the 
line of duty on or before May 7, 1975, and 2 years later will 
expand to eligible veterans injured during the remaining eras 
of service.
    Of note, the program of General Caregiver Support Service 
already available to all veteran caregivers no matter what era 
of service provides support such as assistance from a Caregiver 
Support Coordinator, training, a Caregiver Support Line, and 
peer support. Since its inception, VA has been optimizing the 
Program of Comprehensive Assistance based upon feedback from 
veteran caregivers, Veteran Service Organizations, and military 
service organizations. We also have appreciated not only input 
from them, but also from our Caregiver Survivor Federal 
Advisory Committee.
    A focus for VA has been to promote accurate and consistent 
eligibility decision-making. Efforts under consideration are 
redefining eligibility requirements and creation of 
regionalized multi-disciplinary review teams to make 
eligibility and appeals decisions. The latter will enable 
consistency in determinations and remove medical center 
clinicians from responsibility from such determinations, so 
they instead can focus on supporting and caring for veterans 
and caregivers.
    Other improvements under consideration to the program are 
providing financial planning and legal services, and modifying 
the stipend payment to a more equitable methodology.
    Additionally, governance of the program has been 
strengthened by requiring every veteran's integrated service 
network to have a lead to monitor administration of the 
program, to ensure compliance with national policy and 
procedures, and to provide support and oversight to Caregiver 
Support Coordinators.
    Another critical component of the success of the program is 
to enhance staffing. VA is increasing staffing at its medical 
centers and for its regional review teams.
    VA recognizes our technology challenges. To better meet the 
program's needs, OI&T and VHA executed a strategic pivot away 
from a custom-developed system to adopt an industry-leading 
commercial off-the-shelf platform suited for this need, which 
can be configured to meet the specific requirements of the 
Caregiver Support Program.
    Additionally, VA has shifted from its prior approach of 
seeking to deliver all desired functionality in one big release 
to an approached grounded in agile development, best practices 
for software development in widespread use across the private 
and public sectors. We also designated a new role, a full-time 
products manager, to ensure that we build a highly-function 
product in an iterative manner, prioritize requirements to 
assure caregiver program needs are met, and ensure future 
expansion of the program.
    The Caregiver Record Management Application, also known as 
CARMA, will replace the existing Caregiver Application Tracker 
with abilities such as managing applications, supporting 
administration of the Program of Comprehensive Assistance, 
tracking calls to the Caregiver Support Line, processing 
stipend payments, and significantly improving reporting 
capabilities.
    VA recognizes the sacrifice and value of caregivers and 
wholeheartedly supports expansion of the program of 
Comprehensive Assistance to all eras of service. We remain 
committed to meeting the needs of its stakeholders by 
administering a program that is consistent in delivery, 
transparent in process, and more easily understood by veterans 
and caregivers. We have made significant progress and we will 
continue to work hard to build upon the improvements made thus 
far. We must get this right; our veterans and their caregivers 
deserve nothing less.
    We will not expand the program until we are certain that 
our obligations for eligible veterans and caregivers are met. 
Your continued support is essential to providing the care for 
veterans and their families.
    This concludes my testimony. My colleagues and I are 
prepared to answer any questions.

    [The prepared statement of Steven Lieberman appears in the 
Appendix]

    Ms. Brownley. Thank you, Dr. Lieberman.
    Ms. Harris, you are now recognized for 5 minutes.

                  STATEMENT OF CAROL C. HARRIS

    Ms. Harris. Thank you. Chairs Brownley and Lee, Ranking 
Members Banks and Dunn, Dr. Roe, and members of the 
Subcommittees, thank you for inviting us to testify today on 
the IT challenges affecting VA's Family Caregiver Program. As 
requested, I will briefly summarize our prior related work and 
discuss critical factors underlying successful IT acquisitions.
    As you know, the Veterans Health Administration established 
the Family Caregiver Program at each of its VA Medical Centers 
across the U.S. in May 2011. At that time, the Department 
implemented an IT system called the Caregiver Application 
Tracker, also known as CAT, to help support the program. CAT is 
a Web-based system that was designed to facilitate the exchange 
of information about approved caregivers between the VA Medical 
Centers and other VHA entities. However, in 2014 we reported 
that CAT, which is still in use today, had limitations.
    For example, the Caregiver Support Program Office was not 
able to easily retrieve data needed to assess workload trends 
at the individual medical centers, such as the length of time 
applications are delayed or the timeliness of home visits. As 
such, program officials were limited in their ability to assess 
the scope and extent of workload problems at the individual 
medical centers and on a systemwide basis.
    We noted in our report that VA had taken initial steps to 
obtain another IT system to support the program, but it was not 
sure how long it would take to implement. Accordingly, we 
recommended that VA expedite the process for identifying and 
implementing a system that would fully support the program. VA 
concurred with our recommendation and subsequently began taking 
action in 2015. These actions included steps towards 
implementing short-term improvements to CAT that would be 
followed by a long-term replacement system.
    Unfortunately, VA's efforts to implement a fully capable 
system have been ongoing for at least 4 years and there is no 
end in sight. This morning, I will highlight two key points.
    First, VA has undertaken two efforts, both of which have 
failed, and recently started a third. In 2015, VHA and the 
Office of Information Technology initiated a joint acquisition 
project called CAT Rescue to update CAT and improve the 
system's data reliability. This effort experienced delays and a 
large number of defects during system testing. VA terminated 
the project in April 2018.
    A companion project to CAT Rescue was initiated in 
September 2015 to develop the Caregivers Tool, a new system to 
eventually replace CAT. However, system issues arose during 
user acceptance testing that indicated the system was not 
performing as expected. VA ultimately determined the system was 
not a viable solution and terminated work in February of 2019.
    VA and OIT began a third effort in March 2019 based on an 
existing commercial product. This IT solution, referred to as 
CARMA, is intended to replace CAT, and VA has not yet 
established a date for completing it. We have ongoing work to 
evaluate the Department's efforts and expect to issue our 
report in early fall.
    And now to my second point. There are a number of critical 
factors VA could adopt to increase the likelihood that the 
CARMA acquisition will be a success. Our work has shown that 
successful IT acquisitions generally have nine critical factors 
in common, and I will mention two here.
    One is qualified and experienced program staff; this 
included knowledge of acquisitions and procurement processes, 
monitoring of contracts, and agile software development 
concepts. The VA has historically developed its systems in-
house, and CAT, CAT Rescue, and CareT were no exception. 
Acquiring a commercial product will require a different set of 
skills that VA should ensure it can adequately bring to bear.
    Another factor is testing early and often. The testing of 
functionality by end users prior to acceptance demonstrates 
earlier, rather than later, whether the functionality will meet 
MISSION need.
    The VA would benefit from applying the critical success 
factors we identified. These factors can serve as a model of 
best practices that could help VA deliver an IT system that 
will effectively serve the Family Caregiver Program.
    That concludes my statement and I look forward to 
addressing your questions.

    [The prepared statement of Carol C. Harris appears in the 
Appendix]

    Ms. Brownley. Thank you, Ms. Harris.
    And now I would like to yield 5 minutes to Chairwoman Lee 
for her questions.
    Ms. Lee. Great. Thank you.
    Dr. Lieberman and Dr. Kaplan, as I mentioned in my opening 
statements, I am very concerned about VA's ability to govern IT 
applications, and it is with all IT programs. So I want to ask 
on this specific program some basic questions, just quick, you 
know, setting the stage.
    Who is accountable for this program?
    Dr. Lieberman. I have overall responsibility for the 
Caregiver Program, and for the actual IT system it is myself 
and Mr. Jim Gfrerer.
    Ms. Lee. Okay. VA told the Committee that it was going to 
designate a Product Manager for CARMA; who is that?
    Dr. Lieberman. Dr. Constantian, can you talk about it?
    Dr. Constantian. Our Product Manager for CARMA is Ms. Ming 
Ligh.
    Ms. Lee. And what is her--is that her title or does she 
have another title?
    Dr. Constantian. I know her title with respect to the CARMA 
project that she is the Product Manager. She is with VA's 
Digital Services team.
    Ms. Lee. Okay. What is the OIT's role and what is Caregiver 
Support Program's role in ensuring the final successful 
delivery of an IT service, Dr. Constantian?
    Dr. Constantian. We build IT systems based on the 
specifications and requirements of our business partners, and 
testing goes in to make sure that those requirements have been 
understood and articulated in the IT product.
    With CARMA, we are sort of doubling down on the 
intensification of the tastings, similar to what Ms. Harris was 
saying about frequent testing. So, every 2 weeks we having a 
sprint and for limited aspects of capability for a projected 
release, and that sprint is where members of VHA's Caregiver 
Program are working with our IT developer, Acumen, from whom 
you will be hearing later, and determining whether those 
requirements were well understood and whether that aspect of 
the capability is delivering what the customer is looking to 
receive.
    Ms. Lee. Okay. So, every 2 weeks, you will have a sort of 
check in. And at what point--you know, I am sort of looking at 
what happened in the past and especially the scrapping of the 
CareT program--at what point are we going to be notified of 
possible issues?
    Dr. Constantian. We have established targets for the first 
two releases of discrete functionality of the CARMA product. So 
this is another distinction in terms of how we are moving 
forward with CARMA that we did not follow as rigorously in 
previous efforts. And so this is this agile development process 
where we are putting into production discrete components of 
what the Caregivers Program needs.
    So for the first release that is projected for October of 
2019 we plan to fully replace the capabilities of the CAT 
program. It also because of Salesforce's inherent--well, that 
is the COTS product that we are using--because of its inherent 
utility for case management, which this really is an 
application of case management, the caregivers are serviced by 
caseworkers and customer service calls and reports and typical 
things are needed, we will have a full understanding probably 
in the September time frame as to whether the entire capability 
that is replacing the CAT system is in place, I would say by 
September, but we expect the product to be done by October of 
2019.
    Ms. Lee. Okay. Can I request a check-in with this Committee 
in September, just so we have an understanding of where that 
stands? Thank you.
    Dr. Constantian. Certainly.
    Ms. Lee. Ms. Harris, quickly, do you see parallels right 
now with this governance challenge in comparison with other VA 
IT implementations?
    Ms. Harris. The short answer is yes. I think having a 
clearly defined governance structure is very critical. The 
second component to that is having an adequate acquisition 
program baseline that fully and clearly sets out the 
commitments from a cost schedule and performance target basis, 
and have that all clearly defined and, you know, transparent to 
both GAO, as well as to you. That is a program baseline that we 
have yet to see thus far.
    Ms. Lee. Okay. Thank you.
    I yield.
    Ms. Brownley. Thank you, Chairwoman Lee.
    I now recognize myself for 5 minutes.
    I think the premise has been made clear that this is a 
critically important program, that is why we have expanded it, 
and we know that the demand for it is high. So, in the 
President's budget request for fiscal year 2020, the VA 
requested $720 million to support the Caregiver Program. 
Included in that amount was $150 million for program expansion 
efforts, but this is $100 million less than what the CBO 
projected, and the Independent Budget recommended.
    So how is this budget estimate arrived at, Dr. Lieberman?
    Dr. Lieberman. So this projection was based upon input from 
Milliman, who does our predicted model--
    Ms. Brownley. Input from who?
    Dr. Lieberman. Milliman. They always give us--we work with 
them when we are determining future enrollment or numbers. And 
there were many factors that went into their predictive model 
and that included that as the veteran aged that they would more 
likely be in need of caregiver services, that there would be 
the 2-year gap, although that didn't go into the prediction for 
that particular year.
    Also, a big factor was that, based upon the first rollout 
of the Caregiver, we didn't see 100 percent of the applicants 
applying for the first year, it was more on the order of about 
40 percent, and so that was put into the calculation also.
    Ms. Brownley. So you have great confidence then that this 
is an appropriate budget?
    Dr. Lieberman. So--
    Ms. Brownley. You are the final arbiter of that before it 
goes to the White House, right, for them to create their 
overall budget?
    Dr. Lieberman. Absolutely. We are--now that Dr. Kaplan and 
I are involved, we are actually taking another look at it--we 
were not involved in this previously--to make sure we agree 
with it. We also are working with Milliman to look at the 
latest numbers and see if it impacts at all on our prediction.
    Ms. Brownley. So, you know, in addition to $100 million 
less, according to the budget submission, the Caregiver Program 
has yet to determine either the program's overall staffing 
model, or the definitions and criteria for severe injury. So I 
am just wondering how this third party came up with a budget 
without staffing levels and without this really critically 
important definition for serious injury.
    Dr. Lieberman. So we are certainly looking at the budget as 
we update our staffing models. We believe that the budget will 
meet our needs, but we are taking a serious look at staffing in 
both the facilities and for these regional evaluation teams. 
And we also believe that the final definition of a serious 
injury, whatever it comes out to be, that we will have adequate 
funding for that in the short term.
    Dr. Kaplan, anything you want to add?
    Dr. Kaplan. Thank you. I would just add that we have been 
working with Workforce Management to predict those staffing 
models as well and have good confidence that we are going to be 
able to provide those services. One of the things that we are 
doing to shift the focus in some ways from just having the 
Caregiver Support Coordinator at each medical center is having 
these regional eligibility teams, and so that will take a lot 
of--
    Ms. Brownley. Thank you.
    Dr. Kaplan. Sure.
    Ms. Brownley. Thank you. And I just want to make sure 
that--do we know when the program is going to start? So you 
have created a budget, you have created some money for 
expansion, when is the program going to start? The expanded 
program let me say.
    Dr. Lieberman. We do not have a definite date yet. We are 
waiting for the determination on when the IT system will be 
fully operational.
    Ms. Brownley. Okay. Ms. Harris, do you think that this is 
the right foundation for building a budget?
    Ms. Harris. Well, because the IT solution scope is not yet 
fully defined, as well as the cost and schedules, at least not 
to our knowledge since we haven't seen a program baseline, I 
don't think that the confidence in the current budget can be 
very high. Because, again, if the IT solution is what is 
necessary to expand the program, it doesn't have an adequate 
definition or adequate commitments locked in place, then it is 
not a good basis for moving forward.
    Ms. Brownley. Thank you for that.
    My time is up, and I now recognize Ranking Member Banks for 
5 minutes.
    Mr. Banks. Thank you, Madam Chair.
    Ms. Harris, welcome back to the Subcommittee. We always 
value your expertise.
    In your testimony, you outlined nine critical success 
factors for IT projects; which of the factors do you see 
present in these Caregiver system development efforts and which 
ones are lacking?
    Ms. Harris. The ones that we see in terms of lacking is 
having program staff with adequate knowledge and skills. You 
know, the VA does not have the core competency in acquiring 
commercial products, they have historically developed their 
systems in house, and so that is a completely different animal 
from acquiring commercial product and utilizing agile 
development processes to do so in the configuration, as well as 
the customization, of the ultimate solution.
    And so ensuring that VA has the adequate program management 
knowledge to carry out an agile development project is going to 
be very critical for their success.
    Another key weakness is testing early and frequently. That 
is something that--in their previous failed efforts was 
something that they were lacking in. And so I am pleased that, 
you know, they will be going towards more modernized software 
development approaches in this testing early and often, but the 
linchpin here is really going to be whether they have the 
adequate experience and knowledge to be able to adequately 
acquire it.
    Another critical success factor is also in ensuring that 
stakeholders are actively participating on this program and 
that is--you know, stakeholder involvement, not just--and 
through the procurement process, all the way through the 
development and prioritization of the requirements, and then 
all the way through the final delivery, that is going to be 
essential.
    Mr. Banks. Dr. Constantian, I understand you plan to 
release the new CARMA system in three phases, Phase 1 in 
October, Phase 2 in January 2020, and then Phase 3 at a date 
that has not yet been determined. I have several questions for 
you about that.
    VA is calling CARMA Phase 1 the minimally viable product. 
Is it also fair to call the Caregiver Application Tracker, CAT, 
system a minimally viable product since you are using it now to 
administer the program despite being dissatisfied with it?
    Dr. Constantian. The CAT system I would not characterize as 
a minimum viable product. The minimum viable product as a term 
is used as you are building incrementally a system and adding 
additional functionality. Characterizing a system that is 
already existing and function which we do not have any plans to 
expand upon would not be an appropriate use of the term, sir.
    Mr. Banks. In Phase 2 of CARMA you are going to release a 
stipend-processing capability. Does CAT do stipend processing 
now? And how about CareT?
    Dr. Constantian. CAT--obviously, we have to pay our 
caregivers, so caregivers are paid, but that is done outside of 
the CAT system through a manual procedure. That is for CAT.
    CareT had within the scope of the requirements that it was 
seeking to deliver, did have a stipend determination and 
payment complement to it, yes, sir.
    Mr. Banks. Okay. In Phase 3, I understand that you are 
going to add capability to put the caregiver application form 
online and make all of the enhancements necessary for the 
Caregiver Program to expand per the MISSION Act. That sounds 
like all the functions we don't have now in CAT; would you 
agree with that characterization?
    Dr. Constantian. Well, yes. And Phase 3 could be in several 
sub-phases. We release product, consistent with agile 
development, we release at least every 90 days into production 
and put it into the hands of the Caregiver Program 
capabilities. So--
    Mr. Banks. So, in other words, CARMA doesn't gain functions 
that are fundamentally different from CAT until Phase 3?
    Dr. Constantian. No, no. No, you are correct. So, for 
example, Phase 2 has the stipend calculation capability that is 
not inherent in the CAT system, so that will be in place in 
Phase 2. And then the--among other things, the front end where 
a caregiver can make an online application, that is in--
    Mr. Banks. Okay. So, really quickly, we don't know yet when 
Phase 3 will begin. The staff did a demo on CAT and it is 
definitely a primitive-looking system. But that said, how do 
you justify spending probably another year on CARMA before we 
get anything new out of it?
    Dr. Constantian. It is precisely as the Committee 
described. This is such an important program, and a 
groundbreaking and pioneering program, that we want to make 
sure that the system support is absolutely capable of 
supporting the program without any hiccups and burps after we 
have launched the expansion. So it is our commitment to make 
sure that with CARMA our VHA business partners have 100 percent 
confidence in the system to do their expansion.
    Mr. Banks. Okay. My time has expired.
    Ms. Brownley. Thank you, Mr. Banks.
    And I now recognize Ranking Member Dunn for 5 minutes.
    Mr. Dunn. Thank you, Chairwoman Brownley.
    Let me start with Dr. Kaplan. What percentage of those 
veterans currently in the program would require a nursing home 
if it were not for them being on the Caregiver Program?
    Dr. Kaplan. So that is a really interesting question and I 
think we will have to take that for the record. It is very 
difficult to tease apart exactly what the needs are of that 
caregiver and of that veteran, and so pulling the veteran out 
separately to--our capabilities just aren't showing that right 
now. So I will take that for the record.
    Mr. Dunn. When we are calculating how much money we are 
saving with the program, I mean, that is a fundamental number 
we would like to have I think a grasp on.
    Do you have an estimate for how many veterans might enter 
the program with the new expansion?
    Dr. Kaplan. We do have estimates. They range considerably 
and so we are working with Milliman, our actuaries, to really 
better define those projections. We know that as--
    Mr. Dunn. Do you have an estimate?
    Dr. Kaplan. So the estimate could be anywhere from 60,000 
to 100,000.
    Mr. Dunn. Sixty to--
    Dr. Kaplan. Sixty to a hundred thousand.
    Mr. Dunn. Sixty to a hundred thousand. Thank you.
    Ms. Harris, I am not a programmer, I admire you for being 
one. I am familiar with the Salesforce software; I have used it 
in a couple different corporations. It seemed pretty 
comprehensive, although I think it lacked a payroll system; am 
I correct?
    Ms. Harris. Sir, we currently have ongoing work to evaluate 
CARMA and the Salesforce solution, but at this time I am not 
very familiar with the current product suite of Salesforce.
    Mr. Dunn. So it is really basically a fairly complex 
spreadsheet. And when we talk about all these programmers you 
need, it seems to me you might, may be aiming in the wrong 
direction, which you want people competent with spreadsheet 
development. That was my experience with it. Believe me, if I 
could use it well, I think you have got a lot of people back 
home who could probably do that as well.
    Let me turn back to Dr. Kaplan again. I fear we focus so 
much attention, honestly, on the Family Caregiver Program that 
some of the services and supports that VA offers under the 
general Caregiver Program go unnoticed. Can you talk a little 
bit about what the services are that a veteran and their 
caregiver who are not eligible for the Family Caregiver Program 
might receive under the general program?
    Dr. Kaplan. Certainly. So that is something that we spend a 
lot of time talking about. We really want to ensure that the 
focus is on our general caregiver services. We provide 
education, training, respite, social support, and peer support 
mentoring to all of our general caregivers. We also provide 
them with self-care courses, maybe even courses and training 
specific to what their veteran may have, whether it is 
Alzheimer's disease or multiple sclerosis or PTSD.
    So making sure that we have an enhanced system to provide 
those general caregiver services is paramount to us expanding 
and to being able to provide services for all veterans and 
their caregivers.
    Mr. Dunn. And I trust we are doing outreach, so the 
veterans know that these services are available?
    Dr. Kaplan. Certainly. There is a Caregiver Support 
Coordinator located at every medical center and we are going to 
focus on actually having someone at each medical center to 
focus on general caregiver support services.
    Mr. Dunn. Excellent. Thank you.
    Chairwoman, one more question for Ms. Harris, if I may. You 
know, in the long run after the end of this--we get CARMA 
instituted, it is going to have to integrate with the VA EMR 
system, I think. Are you optimistic? Just give me some--
    Ms. Harris. I mean, system integration and the number of 
system interfaces is not yet clear to us right now. I am not 
quite sure whether VA has adequately defined that as far as the 
number of systems and the--
    Mr. Dunn. So that is the hot problem we have all had with 
our EMRs, integrating them with anything, including another 
EMR.
    Ms. Harris. And it is certainly a challenge that VA will 
face. It is a difficult challenge across the government to 
integrate the system with--
    Mr. Dunn. Let me thank all the witnesses. I want to say, 
Dr. Lieberman, we haven't had a chance to interact as much as 
we should have, and I would like to remedy that situation going 
forward. You know, obviously, the Committee and you should be 
having a regular dialogue and I apologize that we have not done 
that before. Let's make sure we do that in a somewhat less 
stilted fashion.
    With that, I yield back. Thank you.
    Ms. Brownley. Thank you, Dr. Dunn.
    And I now call on Mr. Lamb for 5 minutes.
    Mr. Lamb. Thank you, Madam Chairwoman.
    Ms. Harris, you highlighted the difference between the VA 
buying an off-the-shelf solution with this new product versus 
what they were doing before, could you explain in just a little 
more detail the difference between those two things from the 
VA's perspective? Like were they themselves really developing 
the software solution before or how are those different?
    Ms. Harris. My understanding is that for CAT, CAT Rescue, 
and CareT, VA was developing those solutions in house; those 
were not based on commercial platforms or commercial products. 
The CARMA solution is based on a commercial product. So the 
difference being, because the previous solutions were developed 
in house, they had coders and engineers, folks responsible for 
developing that software, now in this different paradigm, you 
know, this acquiring a COTS product, they are going to have 
to--they won't be the developers anymore, they will be 
overseeing contractors who will be responsible for the 
configuration and the customization of that product.
    And so they will be responsible for contractor insight and 
ensuring that they have the right end users that have a 
frequent dialogue with those software developers to ensure that 
when these short sprints or product releases are released into 
the environment that it has been adequately tested and all the 
kinks have been resolved. And so it is a different animal from 
actually being the developers themselves.
    Mr. Lamb. That sounds to me very similar to the way that 
VistA was developed in house within the VA for medical 
records--
    Ms. Harris. Correct.
    Mr. Lamb [continued].-and now we are moving to Cerner; is 
that a fair analogy for the two situations?
    Ms. Harris. Yes, sir.
    Mr. Lamb. Okay. Dr. Constantian, I see you nodding your 
head. How long have you been at OIT?
    Dr. Constantian. I have been in OIT for about 7 years.
    Mr. Lamb. Okay. Why are we making this move in both cases, 
in your opinion? Do we not have the in-house talent in the VA 
to work on these programs themselves, or what is with the shift 
in thinking here?
    Dr. Constantian. Congressman, we back in 2016, under the 
leadership of LaVerne Council, moved toward a philosophy of 
moving to COTS and strategic sourcing, which our current CIO, 
Mr. Jim Gfrerer, heartily endorses.
    Part of the reason for that, it is not necessarily internal 
capability, it is the ability to share development costs with 
the private sector who are building products that are adaptable 
in the VA environment. So we are following the same approach 
with CARMA by adopting Salesforce that we did by adopting 
Cerner for the electronic health record, and that is 
benefitting from industry-wide best practices in a particular 
area and then making configuration changes of that COTS 
platform to suit specific VA needs. So it is a move toward COTS 
as a philosophy of, you know, buying COTS first where COTS is 
suitable for the solution.
    Mr. Lamb. Okay. Now, in both cases, obviously one of the 
big concerns is how we are going to hold the contractor to some 
sort of time line and result-oriented standard, but it sounds 
to me like as we sit here right now we really don't have any 
idea when this new product is going to be ready to go; is that 
a fair statement?
    Dr. Constantian. So, with agile development, you capture 
different user stories and epics, and basically bundles of 
functionality that you want to deliver. So we have pretty well 
fixed the first two bundles of functionality, the first one 
replaces completely--
    Mr. Lamb. I hate to cut you off, but we are running out of 
time. As we sit here today, the people that you have contracted 
with for this new system, do they have a concrete deadline as 
to when it has to be ready, at least for its first phase?
    Dr. Constantian. For the first phase, our planned target, 
and we have good confidence in it, is that we will have that in 
October of 2019.
    Mr. Lamb. Is that a contractual deadline that they are 
bound to?
    Dr. Constantian. I do not believe so.
    Mr. Lamb. Okay. So I just want to be clear, because 
obviously there are real families behind this situation and 
these are older families, because we are expanding this program 
to people from pre-9/11, so Vietnam era, many of them, they and 
the people that they are caring for don't have very much time 
left in a lot of these cases.
    So if I am asked by one of them at home, which I often am, 
I heard we were getting these benefits, where are they, I am in 
a position right now to say that we have contracted with 
someone to fix this, but they are not held as of right now to 
any actual deadlines; is that right?
    Dr. Constantian. We are expecting them to deliver the first 
phase in October. I will have to get back with you for 
something on the record as to whether there is a contractual 
basis for holding them accountable to particular phases of the 
development.
    Mr. Lamb. Thank you. I am out of time.
    Thank you, Madam Chairwoman.
    Ms. Brownley. Thank you, Mr. Lamb.
    And I now call on Dr. Roe for 5 minutes.
    Mr. Roe. Well, thank you. I won't be long, Madam 
Chairwoman, I don't think. And certainly I have difficulty 
turning an iPad on, so I know the complexity of this has to 
be--you have got a lot of smart people trying to make it work, 
but to Mr. Lamb's point, the veterans out there really don't 
care. What they want to know and what I would like to know is, 
when are we going to sign the first one up? When can the first 
pre-9/11, my generation--and I noticed Mr. Lamb looked around 
when he said, you know, some of us weren't going to be around 
long, he was looking at me when he said that--
    [Laughter.]
    Mr. Roe [continued].-but, seriously, when can we go home to 
our constituents, because we get asked this all the time--they 
know it has passed, many people know, and we had a lot of 
stakeholders put a lot of effort, the Dole Foundation and 
others, into getting this done, and he is correct, this is 
affecting a generation that are dying at hundreds per day.
    Dr. Lieberman. We want to get this done as quickly as we 
can also. This is such a critical program, as you state. We do 
not have that date; we are unable to commit to that date yet.
    Mr. Roe. Okay. So we don't know when that will be.
    The other thing, and Ms. Brownley was on to this, and when 
you were estimating--and I will give the VA an A-plus--when 
three ADLs were used, you all estimated almost to--I mean, it 
was amazing how close you got to around 5,000 veterans that 
would be using this caregiver program, but when it was 
liberalized to one ADL, that is when the number went up to 
around 20,000. I just did some tabletop math here, pretty 
simple math, we are spending $20,000 per person, and 60,000 is 
a $1.2 billion program, not $150 million. It is almost ten 
times what we have--and if it is north of that, 100,000 people, 
we are looking at $2 billion.
    So the estimate, as best I can tell, is way off. Unless we 
don't implement the program where you don't spend any money 
except on technology, it is not working.
    So am I wrong there?
    Dr. Kaplan. So I can appreciate that. And so part of that 
is that we are planning for a 40 percent ramp-up for the first 
year. So 40, 70, and then 90 percent for the following year. 
The other pieces of that being that, you know, we are 
reevaluating those numbers, because I think we want to make 
sure that the considerations for those numbers and projections 
are just and are sound. And when we do have--one of the other 
reasons I think that there is so much flexibility and 
disagreement in the numbers is simply because we have not 
standardized our decision-making in terms of eligibility to the 
extent that we need to, and that is part of our regional 
eligibility teams. So being able to standardize our decisions 
that much more.
    Mr. Roe. I certainly know when Dr. Shulkin was testifying, 
I remember the hearing we had last year when he was talking 
about--even before we passed the MISSION Act, he was talking 
about using three ADLs, which I supported; I think that is what 
the industry standard is, but right now it is one. And I just 
quickly did--I wasn't very good in calculus, but I was pretty 
good in arithmetic, and if you look at 40 percent of the low 
number, that is still almost a half a billion dollars. So we 
are--I think Ms. Brownley is on to something, we have grossly 
underestimated what this is going to cost.
    And I think back to the frustration that this Committee 
has, we look at the--and one of the concerns, I mean an 
absolute red flag in front of the bull that I saw out in 
Spokane a year and a half ago when I was out there was how the 
IT program with Cerner was rolling out. And then we see the 
Post-9/11 GI Bill roll out, that is supposed to be by December 
of 2019 up and functioning, and I am not convinced it will be. 
And we specifically put in law that we would not go live with 
this program until you all, the experts, can certify the IT 
program. So that holdup of the IT is keeping a lot of World War 
II vets, Korean War vets--think about that when you go home 
tonight, the elderly people that desperately do need this, 
think about that.
    And I yield back.
    Ms. Brownley. Thank you, Dr. Roe. And I now recognize Mr. 
Levin for 5 minutes.
    Mr. Levin. Thank you, Chair Brownley. As Dr. Roe said, we 
all have huge numbers of veterans in our communities, in my 
district, in San Diego, and I am very troubled when I hear 
about these IT issues. I chair the Economic Opportunities 
Subcommittee and we just had another joint hearing with the 
Technology Modernization Subcommittee where we learned about 
other IT implementation problems with regard to the GI Bill and 
benefits there.
    And I am trying to understand how we can prevent this from 
happening in the future, what proactive steps you are taking. 
And, you know, here we are examining more than 8 years of 
fruitless efforts to develop a caregiver eligibility tool and 
management system. Several questions for a couple of you.
    Dr. Constantian, what lessons would you say OIT has learned 
in the last 8 years that are reflected in your current approach 
with Salesforce and Acumen?
    Dr. Constantian. I think one of the lessons that we have 
learned is to not assume that we fully understand the 
requirements without having extensive dialogue between our 
developers and our IT staff with our business partners. It is 
one thing to write down requirements, just like in any kind of 
communication. It is one thing for somebody to try to convey a 
meaning. It is another thing for another party to understand 
that same meaning and be on the same page. So I think that is 
something that we have learned.
    The second thing I think we have learned is that in terms 
of process, saying that we are doing--following an agile format 
and actually doing it, as we are doing with CARMA now with two 
week sprints. Checking in regularly with the customer on 
smaller elements of functionality, I think, is a lesson learned 
and something that we're doing better now than we did in the 
prior attempts.
    Third, I think that the practice of committing on the part 
of both the business partner and the IT organization, to put 
some level of capability into production and using it, which we 
are doing with the Phase 1 of CARMA in October, where we will 
discard CAT and we will build from this new Salesforce 
platform, KARMA, and then incrementally build and add 
additional functionality is something that we did not do with 
CareT that we are doing.
    And then a third item is having a product manager, which we 
have not had. We have had more of a hands off project 
management, letting the contractors work more directly with the 
business. We are very involved now. The development team is 
very involved in the process. Ms. Lee is intimately involved 
with what is going on. So that is a practice that has improved.
    And I think in terms of technology, when we kicked off 
CareT in 2015, because there were two contractors involved with 
CareT, we had to stop the development of one contractor of 
CareT which was ManTech, because what we were expecting to be 
delivered under CAT rescue, which was a dependency, didn't come 
across in time. What we have learned is that technology 
improves and Salesforce, now, we had a--in 2019, we had a BPA 
available for Salesforce that we could move to. And so to take 
advantage of strategic sourcing opportunities, I think, are 
other things that we have learned.
    Mr. Levin. So I wanted to dig into CareT with the time I 
have left, and I also was not great at calculus, but pretty 
good at arithmetic. Three years, $7 million were spent for 
Caret's development. Contract awarded to ManTech, as you said, 
September 2015. And then in July 2017, an additional $4.3 
million contract was awarded to AbleVets to fix various 
defects.
    And in their written statement, AbleVets indicated they 
delivered a working product earlier this year. However, they 
were then informed that the department was completely scrapping 
the CareT system. So Dr. Lieberman, do you agree with AbleVets' 
evaluation of their results and what was the VA's reasoning for 
tossing the CareT system after investing $7.3 million?
    Dr. Lieberman. First and foremost for us was expansion of 
the program. And we wanted to have confidence in the product 
that we were using. We were seeing--from the business side, we 
were seeing too many defects and we did not have confidence 
week after week. We were being told that we were going to have 
the finished product, but we were not convinced, and we felt 
like we had to know that we had a product that we could build 
upon that was going to be successful. And so we looked towards 
our colleagues in information technology, and their 
recommendation was that we go with an off-the-shelf product. 
And after reviewing, we agreed that we wanted to be certain 
moving forward we were going to have the right product.
    Mr. Levin. Well, I am out of time. Obviously, we want to 
try to avoid wasting millions and millions of our veterans' 
dollars in the future and I look forward to hearing from you 
and seeing what kind of changes you will make to avoid this 
from happening again. Thank you.
    Ms. Brownley. Thank you, Mr. Levin. Ms. Radewagen, you are 
recognized for 5 minutes.
    Ms. Radewagen. Thank you, Madam Chairman, and I welcome the 
panel. My question is for Dr. Constantian. How do you rank the 
caregiver IT systems in terms of complexity and difficulty, 
compared to the other IT systems the Committee has examined 
recently, like the decision support tool for community care and 
the long-term solution for the forever GI Bill?
    Dr. Constantian. Congresswoman, I--it would be a subjective 
guess and I don't really have a good basis for comparing the 
complexity of the three systems.
    Ms. Radewagen. Okay. So here is another one. So VA has 
repeatedly stated the current system, CAT, is not able to scale 
up to handle the increased numbers of veterans and caregivers 
under the caregiver program expansion. Can you explain why that 
is?
    Dr. Constantian. Well, CAT was only developed to 
accommodate 5,000 records. It's accommodating now I think about 
20,000 active caregivers and has more records in the archive. 
We do not believe the current technology is capable of 
expanding beyond that, which is part of the reason why, based 
on our own assessment and GAO's recommendations, we moved to a 
solution CareT, and now CARMA that is scalable to whatever the 
expansion is that we finally wind up with the MISSION Act 
expanded program.
    Ms. Radewagen. Thank you, Madam Chairman. Yield back.
    Ms. Brownley. Thank you, Ms. Radewagen. Now, I am calling 
on Mr. Cisneros for 5 minutes.
    Mr. Cisneros. Thank you, Madam Chairwoman. Ms. Harris, in 
your testimony, you identified nine critical success factors 
that are consistent with leading industry practices for IT 
acquisition, and you highlighted two of them, program staff and 
active engagement of program officials with the stakeholders. 
Is the VA following these nine critical success factors?
    Ms. Harris. I can't tell you that at this time. We have 
ongoing work to evaluate the current efforts with this third 
effort. And so we intend to report back to you with the final 
report in early fall.
    Mr. Cisneros. Have they followed them in the past?
    Ms. Harris. No, they have not.
    Mr. Cisneros. Dr. Constantian, I am sorry if I said it 
wrong, are we testing the CARMA program?
    Mr. Constantian. Yes, frequently. As I had mentioned, at 
the end of each of the two week epochs, Acumen is working with 
the testers, with VHA and the caregiver program to make sure 
that that discreet bundle of functionality we have gotten 
right.
    Mr. Cisneros. And how are the tests going? Are they being 
successful?
    Dr. Constantian. My understanding is so far things are 
looking good.
    Mr. Cisneros. Sir, are you getting reports every two weeks 
as far as that testing and how it is going, or are you just 
assuming right now that it is, like you said, under your 
understanding, it is going well?
    Dr. Constantian. We are getting weekly reports from the 
product manager.
    Mr. Cisneros. All right. So my question is we have had 
problems with implementation before, what has changed this time 
around to make us think that we can get CARMA implemented and 
have it by October of 2019, as you are saying it will be done? 
What has changed?
    Dr. Constantian. Well, it is the--the first phase of CARMA 
will be done by October of 2019. So I think three things have 
changed. I think--and I would characterize them as people, 
process, and technology. Those are the three elements of the 
change.
    In terms of people, we have, as I had mentioned earlier, a 
product manager who is very intimately involved with the 
development and the testing of the product on a weekly basis, 
and this is the person from whom we get weekly reports.
    In terms of process, we are more intentionally using an 
agile development program where we are--and part of it is that 
2 weeks testing of each incremental sprint, but also it is 
putting into production for general use phases of 
functionality. Phase 1 is replacing CAT, which provides 
reports, registers people who are in the caregiver program, 
takes information on what is coming from the caregiver support 
line and from the caregiver support managers.
    Phase 2, targeted for January of 2020, doing the automated 
stipend processing. So those are the process elements using 
this more agile development--deliberate agile development 
process.
    And then finally in terms of technology, using Salesforce 
as an out of the box capability, a cots capability that is 
applicable to this kind of IT solution has to be customized, 
because as the Committee has very correctly noted, this is a 
pioneering program. There is no other similar benefit in 
government or the private sector. You are absolutely right with 
that. So there has to be some customization. But Salesforce 
brings out of the box capabilities in terms of reporting that 
we did not have in a custom developed system that we have had 
in the past.
    So that for people, process, technology, those are things 
that give me confidence that we will be successful with CARMA.
    Mr. Cisneros. So we are testing the other phase outs too? 
So Phase 2 is being tested, as well as the current Phase 1. And 
then after Phase 1 is done, we will make sure that, or are we 
waiting for Phase 1 to be completed before we start testing 
Phase 2?
    Dr. Constantian. Some work is being done on Phase 2 in 
terms of understanding the requirements, but sort of the--as 
you are writing code, any changes in the code can impact on the 
tests from the previous code. So you have to do regression 
testing. And so you really can't declare something. You can't 
in parallel complete testing for future phases until you have 
completed it sort of serially in Phase 1 and Phase 2. So there 
is work being done with Phase 2 right now in terms of 
understanding the requirements, but the testing focus is on 
Phase 1.
    Mr. Cisneros. Well, I have my fingers crossed that this is 
going to work, Phase 1, because a lot of people are depending 
on this and I hope it does. With that, I will yield back my 
time.
    Dr. Constantian. I hope so too, sir.
    Ms. Brownley. Thank you, Mr. Cisneros. Mr. Barr, you are 
recognized for 5 minutes.
    Mr. Barr. Thank you, Chair Brownley. And thank you for 
holding this hearing to shine a light on the serious problems 
that we have experienced in the rollout of the IT systems 
associated with the Family Caregiving Program.
    And as I sit here and I listen to the testimony here today, 
I can't help thinking about the veterans I have a privilege to 
represent and what they would think if they were sitting here 
listening to this today. And unfortunately, and excuse me if 
this sounds harsh, I know these men and women. And I think if 
they were sitting here today listening to this, they would say, 
``Wow. This is a program that is replete with waste, 
mismanagement, and poor performance.'' And that is harsh and I 
am sorry to have to say that, but I know the veterans I 
represent and I think they would be very disappointed to hear 
that after 8 years and three failed efforts, and scrapping of 
CAT Rescue, and CareT after an initial round with CAT, and now 
moving into CARMA with no end in sight, and millions of dollars 
of taxpayer investment now totally a sunk cost, I think our 
veterans would be extremely disappointed.
    And by the way, not just those pre-9/11 veterans who are 
now supposed to be eligible but can't access the services that 
Congress intended to provide for them, but I also worry about 
the post-9/11 veterans and their caregivers, who I am not sure 
they are getting the services that they have earned either.
    And so let me first ask that question. And let me stipulate 
up-front. You all are the experts. By far, I am not an IT 
expert, so I will defer to your expertise, but I want to know 
for the post-9/11 veterans and their caregivers, how has this 
repeated failed effort to implement the IT systems, how has 
that lack of capability impacted the post-9/11 veterans and 
their caregivers? And I will start with Dr. Lieberman on that 
point.
    Dr. Lieberman. It has really not had an impact. The program 
has been successful. Certainly, it would be more helpful for us 
to have better data reporting analysis of how the program is 
going, but we are still enrolling veterans. We are still 
getting applications and we are still enrolling veterans. And 
we are, based upon having caregivers support coordinators at 
each facility, putting a lead in our networks, we are keeping a 
close eye on how the program is going and we are making sure 
that our caregivers are getting the services that they need to 
serve their veterans.
    Mr. Barr. Well, I certainly hope that is true, especially 
with the initial round of veterans who are supposed to be 
getting these services. But, Dr. Lieberman, as a follow up, 
let's talk about the MISSION Act and the rest of the veterans--
the pre-9/11 veterans who are supposed to be receiving these 
services. And I want to be absolutely sure I understand this. 
Is it accurate that it is necessary to complete Phase 3 of 
CARMA--of the CARMA system before the Family Caregiver Program 
can expand?
    Dr. Lieberman. That is correct.
    Mr. Barr. Okay. So that is the group that is really being 
negatively impacted by all of these delays and these failed 
efforts; is that a fair characterization?
    Dr. Lieberman. Yes, the pre-9/11.
    Mr. Barr. Okay. Let me ask you this. So CARMA is going to 
be an off-the-shelf application; is that right?
    Dr. Lieberman. Yes.
    Mr. Barr. Okay. Why didn't we, and the VA in general has 
moved to an off-the-shelf--commercial off-the-shelf IT 
mentality, Dr. Constantian. Why didn't we have that approach to 
begin with? Why didn't we use that approach to begin with?
    Dr. Constantian. Congressman, in retrospect, maybe we 
should have, but in 2015--so where we were in 2011 was a 
product was very quickly built to conform with the 2010 
legislation that provides some kind of IT support in 2011. That 
was CAT. So in 2015, with CAT Rescue, which was a short term 
fix of some of the shortcomings of CAT and then CareT, we went 
down what in 2015 was our sort of normal operating procedure, 
which was to do custom development.
    In 2017, after we did not have the database that the 
original contractor, ManTech, for CareT needed to continue, we 
awarded a contract to AbleVets, but based on taking over the 
ManTech Solutions. So the 2015 decision on how to do the 
solution sort of stayed with us until early 2019 when we moved 
to Salesforce.
    Mr. Barr. My time has expired, but I do worry that Ms. 
Harris and the GAO is telling us that the VA lacks the 
competency and experience to acquire these commercial products. 
So I do hope the commercial off-the-shelf, the move to that is 
better than the previous efforts. I yield back.
    Ms. Brownley. Thank you, Mr. Barr. And just before I excuse 
the panel, I just want to make one final remark and when we 
passed the MISSION Act, it was very clear with this Committee 
that our intention and motivation was to expand this program to 
every single veteran in our country and their families who is 
deserving of it and meets the qualifications. And I will say 
what I said in my opening comments, I will conclude here, is 
that if there is any effort on the VA's part to try to reduce 
this program to squeeze it into a budget that I believe is 
underfunded, this Committee is going to be very, very angry. I 
just want to be abundantly clear.
    And we have to look at this holistically because the 
caregiver program is a win/win situation. It is what our 
veterans want. It is what their families want, and it is 
cheaper for us to do. So it makes no sense not to be in a 
situation where we want to do everything possible to expand 
upon this program, particularly as we will be facing our aging 
Vietnam veteran population. It is only win/win for everyone.
    So I know you all have a lot of work to do to make this 
right. I appreciate you being here and participating today. And 
I would now like to move onto our next panel. Thank you very 
much.
    Well, we will begin. Well, welcome, our second panel. And 
on our panel this morning, we have Dr. Wendell Ocasio, chief 
medical officer of AbleVets, and Mr. Ken Beecher, director of 
Acumen Solutions. Dr. Ocasio, you are now recognized for 5 
minutes.

                STATEMENT OF DR. WENDELL OCASIO

    Dr. Ocasio. Chairwoman Brownley, Chair Lee, Ranking Member 
Dunn, Ranking Member Banks, and distinguished members of the 
Subcommittees, thank you for this opportunity to testify today. 
My name is Wendell Ocasio. I am a chief medical officer of 
AbleVets, a certified Service-Disabled Veteran Owned Small 
Business specializing in cybersecurity, agile engineering, 
analytics, and technology enablement solutions for government.
    In summary, AbleVets was awarded the CareT contract on July 
5th of 2017. The original requirement for the 10-month base 
period was for AbleVets to start with an existing CareT 
application code base, implemented a defined set of additional 
application requirements, migrate data from the CAT Rescue into 
the CareT product, test the final product, and deploy into 
production. And there were two 12-month optional periods 
focused solely on sustaining the CareT application code once 
deployed into production.
    AbleVets was obligated 3.5 million over a 23-month period, 
successfully completing and delivering the base period 
requirements. The government accepted the deliverables and 
issued a satisfactory performance rating.
    I will now briefly walk through the timeline of events that 
we provided in our written testimony.
    Upon award of the contract in July 2017, AbleVets was 
provided the existing CareT source code and supporting files 
that were developed under a previous contractor. We made 
modifications to this code to implement the additional 
requirements documented in the VA-approved requirements 
backlog.
    In August of 2017, AbleVets began the efforts to migrate 
data from the VA's transitional tool, CAT Rescue, into CareT. 
The CAT Rescue effort was performed by a separate contract. CAT 
Rescue contract experienced delays and eventually in
    April 2018, VA decided not to deploy CAT Rescue. Based on 
the new plan, our data migration requirement shifted to 
migrating data from CAT instead of CAT Rescue. Because of this 
change, VA exercised a 4-month cost modification to our 
contract, resulting in the target date for completion of CareT 
being extended to September 4, 2018.
    In August of 2018, VA issued a new requirement consisting 
of changes to a specific piece of functionality that had been 
completed under the previous CareT contract. This piece of 
functionality provided a portal interface to allow the veterans 
and caregivers to complete online application.
    When VA directed the implementation of this new requirement 
in late August, they awarded AbleVets a 3-month cost-
modification to the contract, providing us to complete this new 
requirement, and as a result extended the target date for 
completion to December of 2018.
    In late November of 2018, upon completion of the new portal 
requirement, AbleVets had still remaining data migration to 
complete. The migration effort had taken longer than estimated 
due to the need to come up to speed on the CAT database, since 
the data model was significantly different than the initially 
planned CAT Rescue. We agreed to a no-cost extension to allow 
time for the data migration to complete. This moved the target 
date for completion to February 28th of 2019.
    We began end to end user-acceptance testing in November of 
2018. Throughout this testing, AbleVets worked closely with VA 
to identify any issues identified by the testers and
    categorized them as application defects or issues 
representing additional requirements beyond the approved 
baseline. We resolved defects in parallel with continued user-
acceptance testing.
    In mid-January, we were informed by the VA program 
management that they decided to pause further testing. During 
this pause, we continued to resolve open defects that had been 
identified to that point. By mid-February, AbleVets had 
resolved the identified required defects and completed the data 
migration efforts.
    At that point, we were informed by VA that the Department 
had chosen not to proceed with deployment of CareT and were not 
going to exercise the sustainment optional task. Instead, the 
exercised the ``Transition Out'' optional task, a 90-day 
knowledge transfer and close-out period. We have successfully 
performed transition activities, have had all contract 
deliverables and invoices approved, and are on target to end 
support on May 28th of 2019.
    Thank you for allowing us to testify today and I look 
forward to answering any questions you may have.

    [The prepared statement of Dr. Wendell Ocasio appears in 
the Appendix]

    Ms. Brownley. Thank you, Dr. Ocasio. And Mr. Beecher, I now 
recognize you for 5 minutes.

                    STATEMENT OF KEN BEECHER

    Mr. Beecher. Good morning to all members of the House 
Veteran Affairs Committee and Subcommittee. Thank you for the 
opportunity to discuss VA's caregiver development
    contract using the Salesforce platform. My name is Ken 
Beecher and I am a Director at Acumen Solutions with 
responsibility for the delivery and execution of our projects 
at the U.S. Department of Veterans Affairs.
    Acumen Solutions is a global consulting firm that helps 
Fortune 1000 companies and government agencies anticipate and 
respond to their customers' needs with innovative cloud-based 
IT solutions. We were founded in 1999, and our primary focus is 
to build mission-based systems that strengthen customer 
relationships. As an industry leader, we partner with some of 
the brightest innovators in cloud technology, such as 
Salesforce, to create exceptional solutions for our customers. 
It is our robust experience, innovative strategies, and a 
commitment to see our customers succeed that make us a trusted 
and proven leader in cloud computing.
    Acumen Solutions is one of Salesforce's global strategic 
partners, the highest tier in the Salesforce partner ecosystem. 
We have completed over 1,800 Salesforce projects across our 
commercial and public sector practices. We have worked in 
nearly all the Federal cabinet agencies, including VA, and are 
proud of our outstanding customer satisfaction rating. In 
short: we pride ourselves in bringing value to our customers 
and those they serve.
    In September 2018, we were awarded a blanket purchase 
agreement, called VA Enterprise Case Management Solutions or 
VECMS. This vehicle provides the VA with easy access to Acumen 
Solutions' professional services to implement Salesforce's 
technology platform for any department within the VA. In March 
2019, VA tasked Acumen Solutions with developing a level of 
effort for a minimum viable product, the MVP, for the Caregiver 
Record Management Application project, known as CARMA, under 
the VECMS contract.
    The Caregiver program is an important subset of the MISSION 
Act, which was passed to improve the VA's ability to deliver 
health care to our veterans; and CARMA is a subset of the 
Caregiver program.
    In April 2019, VA awarded Acumen Solutions the CARMA Phase 
1 minimum viable product task order in the amount of $3.8 
million to perform implementation and integration services. The 
scope of the Phase 1 MVP is to replace the existing system, the 
Caregiver Application Tracker, CAT, used by the Caregiver 
Support Program with an application built on the Salesforce 
platform. The new system will have improved functionality to 
process and manage the applications, allow for manual 
determination of eligibility, provide improved program 
monitoring and tracking, and capture call records and referrals 
by the caregiver support line.
    On Monday, May 20th, after I had submitted my written 
testimony to the Committee, the VA sent us a letter of intent 
to exercise an optional task for CARMA Phase 2, Office of 
Community Care Stipend Payments, in the amount of $1.8 million.
    The scope of Phase 2 is to configure the CARMA module to 
support the stipend payment calculation and associated tasks, 
such as discharges, reinstatements, and reissues. We recognize 
the VA's pressing need to develop and build its information 
technology systems at less expense and with the Nation's 
veterans at the center.
    Acumen Solutions is using the Agile SCRUM software 
development methodology to build the CARMA solution, which 
enables us to rapidly build Salesforce solutions using
    configuration while minimizing custom code. Furthermore, we 
employ a user centered design methodology with close 
consultation with the U.S. Digital Services, USDS, meaning that 
we meet with users of the system to understand their needs and 
pain points, and then create artifacts, such as prototypes and 
journey maps, which are then shared with the configuration 
team.
    Our configuration team then works in a 2-week sprint, 
ending with a demonstration of what was built for immediate 
feedback. To mitigate risk, we provide VA end-users access to a 
test environment with the latest application code, so they can 
interact with and test the functionality independently. Each 
sprint builds on the previous one until we reach a completed 
solution. Our methodology lowers the risk to the VA and to the 
taxpayers by developing pieces of the overall solution in bite 
size increments. In addition, we work with the users throughout 
to constantly confirm that each stage of development meets 
their acceptance criteria.
    Our success to date in configuring Salesforce and replacing 
legacy systems at VA, are a result of collaboration with the VA 
business office and its associated product owners, USDS, the VA 
Digital Transformation Center, OI&T, the Technology Acquisition 
Center, and the Salesforce Program and Business Architects 
working at the VA.
    Acumen Solutions is proud to partner with the VA and 
Salesforce to provide an innovative, effective solution to 
assist the VA on behalf of our Nation's veterans and their 
caregivers.
    Thank you. I look forward to your questions.

    [The prepared statement of Ken Beecher appears in the 
Appendix]

    Ms. Brownley. Thank you, Mr. Beecher. Thank you for your 
testimony and I now recognize Chairwoman Lee for 5 minutes.
    Ms. Lee. Thank you. Thank you for being here. Mr. Beecher, 
I wanted to ask you. When does the contract require you to 
deliver the minimally viable product?
    Mr. Beecher. In our task order, our goal is to implement 
the solution by October 31st.
    Ms. Lee. Is that contractually required?
    Mr. Beecher. We have the flexibility to postpone that based 
on Ms. Harris' critical success factors. So if those nine 
components, and potentially more, happen then we can't be 
beholden to if something gets delayed on VA's behalf.
    Ms. Lee. So if the VA does not implement all nine of those 
success factors, you are not contractually required to deliver-
    Mr. Beecher. No.
    Ms. Lee. Nothing?
    Mr. Beecher. No, I misrepresented. No. It is important that 
those nine factors are mitigated and managed too, but it 
doesn't have to be 100 percent.
    Ms. Lee. So when--contractually, when is the deadline for 
you to deliver a product? You have none?
    Mr. Beecher. We don't have a contractual-
    Ms. Lee. It is a rolling--it is just a rolling deadline?
    Mr. Beecher. Well, our goal is to deploy it by October 
31st.
    Ms. Lee. But it is not contractual? There is no 
repercussions if you don't do it?
    Mr. Beecher. No.
    Ms. Lee. Okay. So what is your confidence level on the 
ability to deliver by October 2019?
    Mr. Beecher. I have a high degree of confidence that we 
will be delivering.
    Ms. Lee. A hundred percent? Ninety?
    Mr. Beecher. I would say 95 percent, close to 100. Yes.
    Ms. Lee. Will--so Salesforce, I just have a question about 
what is their role in the implementation?
    Mr. Beecher. So Salesforce has dedicated architects at the 
VA that support each of the Salesforce projects there.
    Ms. Lee. Okay. Dr. Ocasio, I wanted to switch to you. So 
throughout your contract period, did the VA indicate any time 
that your development was not going in the right direction?
    Dr. Ocasio. Not in a broad sense. We had some issues that 
were identified during the testing. That is kind of how testing 
goes. You test so that you can see the issues. And we were 
addressing them and categorizing them as these were really new 
requirements. These were really misunderstanding of the 
requirements. These were issues that were planned for a future 
release, or these were the issues that we were going to fix, 
and we would fix them as we would go along.
    Ms. Lee. Okay. Can you explain the issues that were brought 
up?
    Dr. Ocasio. I mean, there is a variety of things. Like 
sometimes they said we wanted this particular--if something is 
in a queue and then you press a button, and then something 
happens, and automatically it needs to be in this other queue, 
specific business rules like that. Sometimes they said, ``Were 
you expecting it in a different way?'' And that is when you do 
the analysis to say, ``Wait a minute. This is how it was 
supposed to be,'' or, ``No, this was a misunderstanding. Let's 
go ahead and fix it.''
    Ms. Lee. Okay. How much did the VA pay you before the 
system was completely discarded?
    Dr. Ocasio. Yeah. The total testimony at 3.5 million.
    Ms. Lee. Okay. All right. I am finished. I will yield.
    Ms. Brownley. Thank you, Ms. Lee. Mr. Lamb, I recognize you 
for 5 minutes.
    Mr. Lamb. Thank you, Madam Chairwoman. So Dr. Ocasio, were 
you surprised when your relationship with the VA came to an end 
earlier this year?
    Dr. Ocasio. In para-government, we see often that plans 
change, and things move in a different direction. The 
government has all of the opportunity to make decisions in that 
regard, and we completed the base period. So when there was a 
decision to not to proceed, not completely surprising. It is 
not necessarily absolutely expected. It certainly wasn't 
expected like that, but we have seen changes like that before. 
This is how the business is and we are at the pleasure of the 
government of whatever they want to do.
    Mr. Lamb. Were you given any indication throughout the 
development process that they weren't happy with the product 
you were creating?
    Dr. Ocasio. Other than when there was a pause, obviously, 
there seems to be something going on in terms of there was a 
concern and they were looking at alternatives, but when we were 
notified, I was--from the perspective of, ``We chose to go in a 
different direction.''
    Mr. Lamb. Do you believe that your product could have 
handled the increased demand of the expansion of the Caregiver 
program? We were given an estimate earlier that it could be 
60,000 to 100,000.
    Dr. Ocasio. Yeah. It was engineered to scale in that 
regard.
    Mr. Lamb. Okay. Thank you. Mr. Beecher, you have a goal of 
October of this year. You are not bound to it legally for any 
reason. Just in other situations that you have worked on, other 
projects you have worked on, have you had contracts that have 
bound you to a date for development of one of these IT 
products?
    Mr. Beecher. I will have to get back to you with that one. 
I am not sure about as far as all of the projects that Acumen 
has. I am just familiar with the projects that we have at VA.
    Mr. Lamb. I just mean the ones that you have worked on.
    Mr. Beecher. The ones I have worked, my apologies. There is 
always flexibility with each of our contracts because of the 
growing need and demand of those requirements. But at the end 
of the day, we always try to deploy a minimum viable product by 
that target date.
    Mr. Lamb. Okay. I guess what I mean is I understand there 
is always flexibility some time. Is the flexibility always on 
the date or do they sometimes set a date that you are actually 
required to have something finished by?
    Mr. Beecher. Yes.
    Mr. Lamb. They sometimes do do that.
    Mr. Beecher. Based on time, yeah. For example, when we 
deployed the views module within VA, which is a case management 
solution, we had to get that deployed by I think February of 
2018. Yeah, 2018.
    Mr. Lamb. Okay. So based on what you expect to be finished 
in October of this year, how quickly would an actual person, 
say living in Pennsylvania, who qualifies for the expanded 
benefit, how quickly after October 2019 would they actually see 
the benefits given to them through your platform?
    Mr. Beecher. So that's a very good question. So by the time 
we deploy on October 31st, when the applications come in to the 
caregiver support coordinator, that is when the process kicks 
in. So I don't know exactly how long it is going to take for 
that CSC person to enter the application in and do the pieces 
of tasks that is needed, for example, doing the determination, 
and visiting the home, and those sorts of responsibilities. So 
I can't really say.
    Mr. Lamb. But as far as the IT product goes, like you 
finish it on October 31st. The VA is using it live on November 
1st?
    Mr. Beecher. Correct.
    Mr. Lamb. Okay. Madam Chairwoman, those are my questions. I 
yield back.
    Ms. Brownley. Thank you, Mr. Lamb. Dr. Dunn.
    Mr. Dunn. Thank you, Chairman Brownley. Mr. Beecher, 
virtually all corporations that have a large customer or client 
base use some sort of customer relations management software. 
Your company specializes in helping people adopt Salesforce. Am 
I correct? Do I understand that?
    Mr. Beecher. Correct. We are a--we specialize in a variety 
of different leading cloud solutions. Salesforce is the one 
that is one of those technologies.
    Mr. Dunn. Does your company use Salesforce?
    Mr. Beecher. Yes, it does.
    Mr. Dunn. Good. So this--I am familiar with this software. 
It is actually fairly easy to use. Intuitive kind of use. 
Easily adopted by the people in corporations I have worked in. 
So other than the payroll management side of this thing, which 
I don't think Salesforce does, but is a very, very standardized 
corporate program and corporate function, what do you do with 
Salesforce for all of your clients? You develop spreadsheets 
for us or what?
    Mr. Beecher. Very good question. So at VA, I will just 
speak to my VA experience. So at VA, they use Salesforce for a 
variety of different areas, some of those areas being case 
management, correspondence management--
    Mr. Dunn. That is all the typical things Salesforce does, 
right?
    Mr. Beecher. They do it very well, yes.
    Mr. Dunn. So where do you fit into the thing? I mean when I 
used Salesforce before, I called them, not you. What? Why?
    Mr. Beecher. Well, we configure the Salesforce platform. 
We're a services company.
    Mr. Dunn. So you just tailor it to the corporation, the end 
user?
    Mr. Beecher. Yes, so we work with the end user to 
understand the requirements and we then configure it based on 
those requirements.
    Mr. Dunn. Well, you got a hold of a big old tiger by the 
tail here. I hope you manage to get it done in October. And 
with that, I yield back, Madam Chair.
    Ms. Brownley. Thank you, Dr. Dunn. Mr. Banks.
    Mr. Banks. Thank you, Madam Chair. Dr. Ocasio, before I get 
too deep into this, I want to ask you the most important, basic 
question. Do you believe that CareT is capable of meeting VA's 
needs now? And if not, what would need to happen to make it 
capable?
    Dr. Ocasio. I think CareT is able to meet the requirements 
that we were given for this contract. It is not my place to say 
whether those requirements, as done, are all that the VA needs. 
I think that once you approach an agile development with the 
new techniques like having a minimum viable product, and having 
a dedicated product manager, you sometimes see that you have to 
adjust your initial plans to what you really need.
    So from the perspective of are we basing the decision on 
how the requirements were written? I think absolutely it can be 
done. We have all of those pieces. We have the--excuse me, the 
CareT program has the portal, and has the payment calculations, 
and have the ability to do the support line and so on and so 
forth. So to the extent that that is sufficient, then yes, it 
will be able to accomplish that.
    Mr. Banks. Okay. Your product, CareT, went through a user 
acceptance testing until February and your company's position 
is that you fixed all the defects that were uncovered, does 
that mean all possible defects were fixed or does it mean if 
testing continued, there may be more defects uncovered and we 
aren't sure what would happen with those?
    Dr. Ocasio. I think that the whole purpose of having a 
thorough test is to uncover issues. So to the extent that there 
will be more testing, and in every program that is how you are 
going to do it, you continue to find, and then you fix them in 
a timely fashion. So there is no way to say that all of a 
sudden because an abrupt test ended that there is nothing else 
to be found.
    Mr. Banks. Okay, Mr. Beecher, Salesforce is a cloud based, 
customer relationship management or CRM platform. How is that 
different from CAT and CareT, and how does a CRM system lend 
itself to administering the caregiver program?
    Mr. Beecher. Excellent question. Excuse me. So what 
Salesforce is, Salesforce is a platform and so that platform 
allows us to build solutions to meet those customers' needs. 
When we met with the VA stakeholders in March, we got a very 
good understanding of their business processes. We saw their 
CAT demo. We talked about the strengths of the current systems, 
the limitations, the deficiencies and what they would like to 
see. And we were able to develop those requirements using the 
Salesforce platform to meet those requirements.
    Mr. Banks. So even though you are building the CARMA system 
on a proven platform, there is obviously a lot of work 
involved, given the timelines that VA presented. How much of 
the functionality of the CARMA system already exists in the 
generic Salesforce platform and how much are you creating?
    Mr. Beecher. That is a good question. I would say that 
Salesforce is a blank slate, if you will, of a commercial 
solution that you are able to build. We use the out of the box 
features to build those functionality. But having said that, 
based on our experience at VA, we are able to leverage some of 
those modules that we have previously built for other VA 
offices into the CARMA module.
    So for example, the MVI integration is something that we 
can leverage and build on. And there are other modules as well 
that we are leveraging.
    Mr. Banks. So these caregiver systems are databases of 
fewer than 50,000 people, as I understand. VA has much larger 
databases than that, but that notwithstanding, these projects 
are obviously difficult as VA is beginning its fourth attempt. 
Where do you see the difficulty and the risk, and how is your 
company going to perform better than that?
    Mr. Beecher. Great question. And I am appreciative of Ms. 
Harris' testimony before and seeing those nine components, 
which I absolutely agree with. I mean, those are the 
predominant risks of client engagement, participation, user 
acceptance testing.
    So to answer your question, according to our--using our 
methodology, we do a 2-week sprint. At the end of those two 
weeks, we give the user that ability to go into a test 
environment and play with the functionality. And so one of the 
big things that we have heard today is about UAT and waiting 
too long. Well, we are actually doing it the week right after 
the sprint, and they will have the ability to go into the 
system afterwards.
    Mr. Banks. Okay. Thank you. My time is expired.
    Ms. Brownley. Thank you, Mr. Banks. And I will yield 5 
minutes to myself.
    Dr. Ocasio, first, let me say thank you for your service to 
our country. I had a question for you. Your mission was to 
develop an online application portal and I understand you 
accomplished that. It is my understanding. So if you could talk 
a little bit about the results of the portal. I think the key 
question I wanted to ask is after the work that you had done, 
do you think that your portal could have successfully received 
applications for the caregiver program?
    Dr. Ocasio. Yes, it could have.
    Ms. Brownley. Yes?
    Dr. Ocasio. Yes.
    Ms. Brownley. Thank you very much. Mr. Beecher, you are our 
white knight in shining armor. We are hoping really good things 
to happen because this program needs to be completed and it 
needs to get online. We are disappointed that Salesforce 
couldn't be here so that we could get a sense from them. It is 
always when people say they can't come, it gives you a bad 
feeling that maybe they don't have good news to tell, and so 
they are avoiding being here. I don't know what the situation 
is.
    But you have expressed a lot of confidence that you are on 
the right track. Obviously, that is a first phase of a longer 
phased process within CARMA. And I have been saying up here to 
staff, I hope all of this is good CARMA, not bad CARMA. But in 
terms of the additional steps that need to take place 
throughout this, do you have any sense of timeline. The VA 
obviously can't--won't commit to a timeline. Do you have any 
sense of it at all?
    Mr. Beecher. No. Our goal is to stay focused on the task at 
hand with our first two phases.
    Ms. Brownley. Pardon me?
    Mr. Beecher. Our goal is to stay focused on those two 
phases that we are signed up for as far as the task order.
    Ms. Brownley. I see. So you have only been contracted for 
two phases. I understand. Okay. Well, thank you very much. I 
wonder if either one of you are aware of the Canadian system. 
Canada has a comparable caregiver program system that works 
very effectively is my understanding. And they have a robust 
user facing portal that allows for the ability to apply online, 
track status, appeal decisions, and communicate directly with 
veteran case workers. Are either one of you familiar with that 
system?
    Dr. Ocasio. I am not familiar with it.
    Ms. Brownley. No?
    Mr. Beecher. Neither am I.
    Ms. Brownley. Okay. Well, with that. I--members have needed 
to leave. I need to go. So I want to thank both the panels for 
being here. We will be staying in touch with you to understand 
the progress because we are all very, very focused on this 
October deadline. I thank you both for appearing before us 
today. I think that we have gotten a lot of good information. 
Now, we just need action and need this program up and running.
    And with that, all members will have 5 legislative days to 
revise and extend their remarks and include extraneous 
materials. And so without objection, the Subcommittee stands 
adjourned. Thank you.

    [Whereupon, at 11:59 a.m., the Subcommittees were 
adjourned.]





                            A P P E N D I X

                              ----------                              

              Prepared Statement of Steven Lieberman, M.D.
Introduction

    Good morning Chairwoman Brownley, Chairwoman Lee, Ranking Member 
Dunn, Ranking Member Banks, and Members of the Subcommittees. Thank you 
for the opportunity to discuss VA's Caregivers Program relative to the 
John S. McCain III, Daniel K. Akaka, and Samuel R. Johnson VA 
Maintaining Internal Systems and Strengthening Integrated Outside 
Networks Act of 2018 (commonly referred to as the MISSION Act), and its 
supporting Information Technology (IT) systems. I am accompanied today 
by Dr. Elyse Kaplan, Deputy Director, VA Caregiver Support Program, and 
Dr. Alan Constantian, Deputy Chief Information Officer, Account 
Management Office and Account Manager for Health.
    Caregivers play a critical role in the United States health care 
system. VA is leading the country in providing unprecedented benefits 
and services to caregivers in support of Veterans, knowing that 
providing care takes a toll on one's physical, psychological, and 
financial health. Caregivers enable Veterans to maintain their highest 
level of independence and remain in their homes and communities for as 
long as possible. The MISSION Act expands comprehensive services and 
supports to family caregivers of eligible Veterans of all service eras.

MISSION Act and PCAFC Transformation

    The Program of Comprehensive Assistance for Family Caregivers 
(PCAFC) is currently limited to eligible Veterans who incurred or 
aggravated a serious injury in the line of duty on or after September 
11, 2001, and their family caregivers, who have benefited greatly from 
the services provided through this program. Under the MISSION Act, 
PCAFC will expand to include eligible Veterans of earlier service eras 
once VA certifies to Congress that we have fully implemented the 
required IT system. The expansion will occur in two phases beginning 
with eligible Veterans who incurred or aggravated a serious injury in 
the line of duty on or before May 7, 1975. Two years later, PCAFC will 
expand to include eligible Veterans injured during the remaining eras 
of service. VA is pleased to expand PCAFC to more family caregivers of 
eligible Veterans of all service eras.
    VA was working to improve the administration of PCAFC in response 
to concerns about inconsistency before the MISSION Act was enacted and 
now we have increased those efforts to support the program's expansion. 
The Caregiver Support Program (CSP) has strengthened its overall 
governance by requiring every Veterans Integrated Service Network 
(VISN) Director to designate a VISN Lead who is charged with monitoring 
the administration of PCAFC across the VISN; providing guidance, 
coaching, and support to Caregiver Support Coordinators (CSC) within 
the VISN; and ensuring compliance with national policy and procedures. 
In cases where a VISN Lead is also a Caregiver Support Coordinator, 
VISN Directors are required to ensure another identified point of 
contact at the VISN Office.
    VA recognizes that the current eligibility criteria and assessment 
for PCAFC are complex and is, therefore, engaged in process improvement 
efforts to promote accurate and consistent decision making. The 
Caregiver Support Program deployed a mandatory annual refresher 
training for CSCs and VISN Leads in March 2019 and followed this with 
small group discussions to provide further opportunity for 
clarification and coaching. Additionally, clinical eligibility training 
for PCAFC providers is currently in development and will serve to 
further enhance accurate decision-making.
    VA has amended Veterans Health Administration (VHA) Directive 
1152(1), Caregiver Support Program, to include 14 Standard Operating 
Procedures (SOP) that provide further guidance to field based staff 
responsible for administering local CSPs. SOP topics include required 
orientation, required training, and other operationalizing procedures 
governing PCAFC such as communicating roles, responsibilities, and 
requirements to those applying for PCAFC. National training on these 
SOPs was provided to CSCs and VISN leads in October 2018.
    VA has heard concerns from Veterans, caregivers, and other 
stakeholders about PCAFC inconsistencies. We have done a great deal of 
work to better train and equip our staff with the tools needed to 
promote increased standardization; however, more needs to be done. VA 
understands the importance of changing elements of the program that 
will foster consistency, improve transparency, and provide support and 
services to eligible Veterans and their caregivers, as intended. To 
achieve this, VA is pursuing regulatory changes to improve the current 
PCAFC and expand PCAFC eligibility and services as required by the 
MISSION Act. Changes under consideration include modifying the stipend 
payment methodology; establishing a standardized timeframe for 
eligibility reassessments; and redefining aspects of the eligibility 
requirements, such as the definition of serious injury, to provide more 
clarity for VA staff and more importantly, Veterans and their family 
caregivers. As part of PCAFC expansion, VA also considered reducing the 
number of need tier levels. Currently there are three tiers, which 
generally correspond to low, moderate, and high degrees of need. Any 
changes to PCAFC regulations are subject to notice and comment 
rulemaking.
    As we pursue the rulemaking required to implement the MISSION Act, 
VA has pursued opportunities to engage Veterans, subject matter 
experts, Veterans Service Organizations (VSO), caregivers, and other 
stakeholders. In November 2018, a notice was published in the Federal 
Register seeking public comments on how to improve PCAFC and implement 
certain changes to PCAFC that are required by the MISSION Act. Feedback 
included the importance of clear definitions, for example personal care 
services, the impact of cognitive impairment and standardization of 
eligibility. Additionally, in March and April 2019, VA held meetings 
with various VSOs to discuss PCAFC and the MISSION Act. Discussion 
topics included the definitions related to PCAFC eligibility, the tier 
system, and the revocation and transition of participants from PCAFC. A 
listening session with a small group of caregivers currently 
participating in the PCAFC occurred on April 26, 2019. This listening 
session sought input on the delivery of legal services and financial 
planning services, as authorized by the MISSION Act.
    Any proposed changes to the regulations governing PCAFC, including 
rulemaking to implement expanded eligibility and services as directed 
by the MISSION Act, will include an impact analysis that provides, 
among other things, projected costs and impact on eligible Veterans and 
caregivers. Regardless of pending regulatory changes impacting 
eligibility determinations, consistent decision making and transparent 
communication, that includes input from the Veteran and family 
caregiver, will remain an integral part of our processes.

IT Development Process

    VA acknowledges that we have faced technology challenges around the 
Caregiver Support Program in the past. In response to these challenges, 
the VA Office of Information Technology and VHA agreed to execute a 
strategic pivot away from a custom developed to a commercial off-the-
shelf (COTS) system to better support the program's current and future 
needs and business requirements.
    This pivot included simplifying the business requirements coupled 
with selecting the right COTS software platform which could be 
configured to meet the specific requirements of VA's Caregiver program. 
Additionally, VA shifted from an approach where all desired system 
requirements were delivered in a single release to one where useful 
functional components could be delivered into production for use by the 
program office incrementally. This is the agile development approach to 
software development widely adopted across the private and public 
sectors. We also designated a full-time Product Manager to ensure that 
we build a highly functioning product in an iterative manner; have the 
proper oversight over implementation; and ensure future expansion of 
the program. Currently, VA is actively engaging in planning for data 
migration and integration with other VA systems, such as the Master 
Veteran Index, the Enrollment System, the Financial Management System, 
and the Benefit Gateway System.
    The original effort to develop an IT solution for the current 
program was intended to support administrative processing of 
applications, automate stipend payments to Caregivers, and provide 
systems support for Caregiver Support Services and the Caregiver 
Support Line. However, because of defects arising during user 
acceptance testing of the CareT product, testing was paused in early 
January 2019. VA reviewed its options for implementing a robust 
Caregiver IT solution in January and February 2019 and chose to take a 
new direction it believes will provide a firmer foundation for systems 
support for the Caregiver program in the long run. We chose the 
commercially available Salesforce solution as an improved technological 
platform for our systems solution. We also committed to a more 
intentionally agile development approach, with incremental deliveries 
of capability into production. Finally, we assigned and empowered a 
Product Manager for the new approach who will guide the agile 
development process of the newly named Caregiver Record Management 
Application (CARMA). The Product Manager is responsible for the backlog 
of IT work and will ensure the program's prioritized requirements are 
executed in a disciplined agile manner through incremental releases. 
The projected outcome is the delivery of software and a database on a 
scalable computing platform to meet the requirements of the MISSION 
Act.

    CARMA will replace the existing Caregiver Application Tracker (CAT) 
and will have multi-level functionality, including the ability to:

    <bullet>  Track and manage PCAFC applications, including approvals, 
denials, and appeals;
    <bullet>  Support the administration of PCAFC and monitoring the 
well-being of participants in PCAFC;
    <bullet>  Track calls made to the Caregiver Support Line (CSL), as 
well as caregiver referrals to local medical centers for additional 
assistance;
    <bullet>  Process stipend payments to family caregivers in PCAFC; 
and
    <bullet>  Improve reporting capabilities.

    The MISSION Act requires that this new system easily retrieve data 
that allows all aspects of PCAFC, including workload trends (at the 
medical center and aggregate levels), be assessed and comprehensively 
monitored. Further, the system must have the ability to manage 
caregiver data that exceeds the number of caregivers that the Secretary 
of Veterans Affairs expects to apply for PCAFC, as well as the ability 
to integrate the system with other relevant VHA IT systems.

Delivery Schedule

    The first release of CARMA is expected to be launched in quarter 1 
of Fiscal Year 2020. It will replace much of the CAT functionality as 
it currently exists and feature increased data integrity, to allow for 
improved oversight at the medical center level. The second release of 
CARMA, anticipated in January 2020 (exact date to be determined) will 
automate the processing of stipend payments to caregivers. Subsequent 
releases of CARMA and associated efforts will modify systems with which 
CARMA will interface (e.g. the Computerized Patient Record System; the 
Enrollment and Eligibility System; and Veterans Information Systems and 
Technology Architecture VistA components) and deliver other program 
office requirements needed to fully support PCAFC expansion.

Conclusion

    VA supports the expansion of PCAFC and recognizes the sacrifice and 
value of Veterans' family caregivers. Expanding PCAFC eligibility under 
the MISSION Act will allow VA to support family caregivers of Veterans 
of all eras of service. Given the critical role caregivers play in 
providing for Veterans, VA is committed to the development of robust 
policies and systems that support them. We are committed to rebuilding 
the trust of Veterans and will work hard to continue the improvements 
we have made thus far. Your continued support is essential to providing 
this care for Veterans and their families. This concludes my testimony. 
My colleagues and I are prepared to answer any questions.

                                 <F-dash>
                            Carol C. Harris
VA HEALTH IT

Use of Acquisition Best Practices Can Improve Efforts to Implement a 
    System to Support the Family Caregiver Program

    Chairs Lee and Brownley, Ranking Members Banks and Dunn, and 
Members of the Subcommittees:
    Thank you for the opportunity to participate in today's hearing 
regarding the Department of Veterans Affairs' (VA) efforts to implement 
an information technology (IT) system to support the management and 
execution of its Program of Comprehensive Assistance for Family 
Caregivers (Family Caregiver Program).
    To provide greater support for caregivers of post-9/11 veterans, 
Congress and the President enacted legislation in May 2010 requiring VA 
to establish a program to assist caregivers with the rigors of caring 
for seriously injured veterans.\1\ In May 2011, the Veterans Health 
Administration (VHA), which operates VA's health care system, 
established the Family Caregiver Program at each of its VA medical 
centers (VAMC) across the United States.
---------------------------------------------------------------------------
    \1\ See Caregivers and Veterans Omnibus Health Services Act of 
2010, Pub. L. No. 111-163, 124 Stat. 1130 (May 5, 2010) (codified at 38 
U.S.C. Sec.  1720G). The term "caregiver" in this testimony refers to 
the individual that VA approved to serve as the veteran's primary 
caregiver. A veteran may have up to three approved caregivers at a time 
under the program, see 38 C.F.R. Sec.  71.25(a)(1), but only the 
primary caregiver is eligible for the full range of services authorized 
by the statute. 38 U.S.C. Sec. Sec.  1720G(a)(3)(A), (a)(7)(B).
---------------------------------------------------------------------------
    At that time, the department implemented an IT system, called the 
Caregiver Application Tracker (CAT), to help support the program. 
However, we reported in September 2014 that CAT, which is still in use 
today, had limitations and recommended that VA expedite the 
implementation of a replacement system.\2\
---------------------------------------------------------------------------
    \2\ GAO, VA Health Care: Actions Needed to Address Higher-Than-
Expected Demand for the Family Caregiver Program, GAO-14-675 
(Washington D.C.: Sept. 18, 2014).
---------------------------------------------------------------------------
    As you requested, my statement today summarizes findings from our 
September 2014 report that discussed VA's implementation of the Family 
Caregiver Program. This statement also includes relevant information 
that VA provided on its actions toward addressing our prior 
recommendation. Further, my statement discusses critical success 
factors related to major IT acquisitions identified in our prior 
work.\3\ We have previously reported that these success factors could 
enhance the likelihood that an IT acquisition will be successful. The 
reports cited throughout this statement include detailed information on 
the scope and methodology of our prior reviews.
---------------------------------------------------------------------------
    \3\ GAO, Information Technology: Critical Factors Underlying 
Successful Major Acquisitions, GAO-12-7 (Washington, D.C.: Oct. 21, 
2011).
---------------------------------------------------------------------------
    We conducted the work on which this statement is based in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.

Background

    VHA's Family Caregiver Program is designed to provide support and 
services to family caregivers of post-9/11 veterans who have a serious 
injury that was incurred or aggravated in the line of duty. The program 
provides approved primary family caregivers with a monthly financial 
stipend as well as training and other support services, such as 
counseling and respite care.\4\
---------------------------------------------------------------------------
    \4\ Other approved caregivers-referred to as secondary family 
caregivers-may be eligible for training, counseling, and certain 
lodging and subsistence.
---------------------------------------------------------------------------
    The Family Caregiver Program has a series of eligibility 
requirements that must be satisfied in order for family caregivers to 
be approved.

    <bullet>  To meet the program's initial eligibility criteria, the 
veteran seeking caregiver assistance must have a serious injury that 
was incurred or aggravated in the line of duty on or after September 
11, 2001.\5\ According to the program's regulations, a serious injury 
is any injury, including traumatic brain injury (TBI), psychological 
trauma, or other mental disorder, that has been incurred or aggravated 
in the line of duty and renders the veteran or servicemember in need of 
personal care services.
---------------------------------------------------------------------------
    \5\ The applicant could also be a servicemember who is undergoing 
medical discharge from the military.
---------------------------------------------------------------------------
    <bullet>  The veteran must be in need of personal care services for 
a minimum of 6 continuous months based on any one of the following 
clinical eligibility criteria: (1) an inability to perform one or more 
activities of daily living, such as bathing, dressing, or eating;\6\ 
(2) a need for supervision or protection based on symptoms or residuals 
of neurological or other impairment or injury such as TBI, post-
traumatic stress disorder, or other mental health disorders; (3) the 
existence of a psychological trauma or a mental disorder that has been 
scored by a licensed mental health professional, with a Global 
Assessment of Functioning score of 30 or less,\7\ continuously during 
the 90-day period immediately preceding the date on which VHA initially 
received the application; or (4) the veteran has been rated 100 percent 
service connected disabled for a qualifying serious injury and has been 
awarded special monthly compensation that includes an aid and 
attendance allowance.\8\
---------------------------------------------------------------------------
    \6\ The activities of daily living that veterans may need 
assistance with to qualify for the program include dressing or 
undressing; bathing; grooming; toileting; eating; mobility such as from 
the bed to a chair; and frequently adjusting a prosthetic or orthopedic 
device that cannot be done without assistance.
    \7\ The Global Assessment of Functioning assessment is a well-
established mental health examination that uses a score of zero to 100 
to determine an individual's ability to function psychologically and 
socially. An individual who has been assessed as having a psychological 
trauma or mental disorder and has been scored at 30 or less generally 
requires a higher level of care that would include constant 
supervision.
    \8\ VA's Aid & Attendance is a financial benefit for veterans who 
require assistance from a caregiver. It can be added to a veteran's 
existing pension if the veteran requires assistance with activities of 
daily living or for safety. Veterans who are bedridden, severely 
visually impaired, or reside in a nursing home due to mental or 
physical incapacity also may qualify.
---------------------------------------------------------------------------
    <bullet>  To be considered competent to care for the veteran, 
family caregivers must meet certain requirements including (1) having 
the ability to communicate and follow details of the treatment plan and 
instructions related to the care of the veteran; (2) not determined by 
VA to have abused or neglected the veteran; (3) being at least 18 years 
of age; and (4) either being a family member-such as a spouse, son or 
daughter, parent, step-family member, or extended family member-or an 
unrelated person who lives or will live full-time with the veteran.
    <bullet>  Family caregivers must also complete required training 
before being approved for the program.

Family Caregiver Program Organizational Structure

    VHA's Caregiver Support Program office is responsible for 
developing policy and providing guidance and oversight for the Family 
Caregiver Program. It also directly administers the program's stipend, 
provides support services such as a telephone hotline and website, and 
arranges coverage through the Civilian Health and Medical Program of 
the Department of Veterans Affairs (CHAMPVA) for eligible caregivers if 
they have no other coverage.\9\
---------------------------------------------------------------------------
    \9\ Primary family caregivers approved for the Family Caregiver 
Program qualify for CHAMPVA if they are not eligible for TRICARE and 
are not entitled to care or services under a health plan contract (as 
defined in 38 U.S.C. Sec.  1725(f)), including Medicare or employer 
provided health insurance. Caregivers covered by CHAMPVA can receive 
medical services from community providers or, when available, from 
VAMCs.
---------------------------------------------------------------------------
    Further, the office provides funding to VAMCs to cover certain 
program costs. These costs may include the salaries of the caregiver 
support coordinators (CSC), who implement and administer the Family 
Caregiver Program at the local VAMC level, and the costs VAMCs incur 
for having their clinical staff, such as nurses, conduct the program's 
required in-home visits to approved caregivers and their veterans.
    CSCs are generally licensed social workers or registered nurses, 
and they have both clinical and administrative responsibilities. Their 
clinical responsibilities may include identifying and coordinating 
appropriate interventions for caregivers or referrals to other VA or 
non-VA programs, such as mental health treatment, respite care, or 
additional training and education. Their administrative 
responsibilities may include responding to inquiries about the program, 
overseeing the application process, entering information about 
applications and approved caregivers into IT systems, and facilitating 
the processing of appeals.
    As of May 2014, there were 233 CSCs assigned to 140 VAMCs or health 
care systems across the country.\10\ Additionally, each regional VISN 
office has a VISN CSC lead for the program, who provides guidance to 
CSCs and helps address their questions or concerns.
---------------------------------------------------------------------------
    \10\ While CSCs administer the Family Caregiver Program at 151 VA 
facilities, they are assigned to 140 VAMCs or health care systems, 
which may include more than one VA facility. We present program 
statistics based on CSC assignments because that is how they are 
tracked by the Caregiver Support Program office.

GAO Has Previously Reported on the Family Caregiver Program IT System 
---------------------------------------------------------------------------
    Limitations

    CAT, which was deployed in May 2011, is a web-based system that was 
designed to facilitate the exchange of information about approved 
caregivers between VAMCs and other VHA entities. Such entities include 
the Health Administration Center, which processes the caregiver stipend 
payments and administers CHAMPVA.
    In 2014, we reported that the Caregiver Support Program office was 
not able to easily retrieve data from CAT that would allow officials to 
better assess workload trends at individual VAMCs-such as the length of 
time applications are delayed or the timeliness of home visits-even 
though these data were already captured in the system.\11\ Caregiver 
Support Program officials only retrieved workload data on an ad hoc, 
as-needed basis, which limited their ability to assess the scope and 
extent of workload problems comprehensively at individual VAMCs and on 
a system-wide basis. Program officials also expressed concern about the 
reliability of the system's data.
---------------------------------------------------------------------------
    \11\ GAO-14-675.
---------------------------------------------------------------------------
    As we noted in our report, program officials also identified the 
need for a more capable and flexible system that could interface with 
other departmental systems. The officials told us that they had taken 
initial steps to obtain another IT system to support the Family 
Caregiver Program; however, the officials were not sure how long it 
would take to implement the system. Accordingly, we recommended that VA 
expedite the process for identifying and implementing a system that 
would fully support the Family Caregiver Program.
    VA concurred with our recommendation and subsequently began taking 
actions in 2015 to implement a replacement system. These actions 
included taking steps toward implementing short-term improvements to 
CAT that were to be followed by the implementation of a long-term 
replacement system. The recommendation continues to remain open.

Statute Directs VA to Implement an IT System to Support the Family 
    Caregiver Program

    The John S. McCain III, Daniel K. Akaka, and Samuel R. Johnson VA 
Maintaining Internal Systems and Strengthening Integrated Outside 
Networks Act of 2018 (VA MISSION Act), which was enacted in June 2018, 
included provisions directing VA to implement an IT system to support 
the Family Caregiver Program and the incremental expansion of program 
eligibility.\12\ Specifically, the Act required VA to implement an IT 
system to fully support the Family Caregiver Program by October 1, 
2018. According to the act, the system is to allow for data assessment 
and comprehensive monitoring of the program. In particular, the system 
is to have, among other things, the ability to (1) retrieve data to 
monitor workload trends at the medical center and aggregate levels; (2) 
manage an increased number of caregivers as the program expands; and 
(3) integrate with other relevant IT systems at VHA.
---------------------------------------------------------------------------
    \12\ Pub. L. No. 115-182, Sec. Sec.  161-163, 132 Stat. 1438-1443 
(2018). The VA MISSION Act requires an incremental expansion of 
eligibility for the Family Caregiver Program. Specifically, within 2 
years of the VA Secretary certifying the IT system for the Family 
Caregiver Program, VHA is to expand program eligibility to caregivers 
of veterans with a serious injury incurred or aggravated in the line of 
duty on or before May 7, 1975 or on or after September 11, 2001. Two 
years after this initial expansion of eligibility, VHA is to further 
expand program eligibility to include veterans with a serious injury 
incurred or aggravated in the line of duty and is in need of personal 
care services as specified in the statute.
---------------------------------------------------------------------------
    The act also stated that VA was to submit an initial report to 
Congress regarding the status of the planning, development, and 
deployment of this system within 90 days of enactment of the VA MISSION 
Act, and that the department is to submit a final report to Congress by 
October 1, 2019. The final report is to include a certification by the 
VA Secretary that the system has been implemented, along with a 
description of how the Secretary is using the system to monitor the 
workload of the program.

VA Has Not Yet Implemented an IT System That Effectively Supports the 
    Family Caregiver Program

    Although we previously recommended that VA expedite implementation 
of a replacement for CAT, and the MISSION Act directed the department 
to implement an IT system to support the Family Caregiver Program, VA 
has not yet been successful in its multiple efforts to implement such a 
system. Specifically, VA has faced a number of difficulties in 
developing and implementing short-term improvements as well as a long-
term replacement system for CAT.
    In July 2015, VHA and the Office of Information and Technology 
(OIT) initiated a joint acquisition project, called CAT Rescue, to 
update CAT and improve the system's data reliability.\13\ However, the 
department reported in January 2017 that this project had experienced 
delays and identified a large number of defects during system testing. 
VA terminated the project in April 2018 before any new system 
capabilities were implemented.
---------------------------------------------------------------------------
    \13\ OIT, under the leadership of the Assistant Secretary for 
Information and Technology/Chief Information Officer, manages most IT-
related functions at VA.
---------------------------------------------------------------------------
    A companion project to CAT Rescue that VA initiated in September 
2015 was to develop the Caregivers Tool (CareT), a new system intended 
to be a long-term replacement for CAT. As envisioned, this system was 
to use the improved data from CAT Rescue while also adding new system 
capabilities. However, the user acceptance testing of CareT identified 
the need for the department to develop more system capabilities than 
originally planned. Further, the department determined that the time 
period needed to perform additional system development would have 
extended beyond the term of the development contract, which ended in 
April 2017.
    VA subsequently awarded a new CareT development contract in July 
2017. However, after additional system development, the department 
determined during user acceptance testing that the system was not 
performing as expected and implementation of CareT was further delayed. 
In October 2018, the department reported to congressional committees 
that implementing a system to fully support the Family Caregiver 
Program by the VA MISSION Act deadline was not feasible. Subsequently, 
the department determined that CareT was not a viable solution and VHA 
and OIT terminated work on the system in February 2019.
    VHA and OIT began a third effort in March 2019 to acquire a 
replacement system that is to be based on an existing commercial 
product. According to OIT officials, the new IT solution, referred to 
as the Caregiver Record Management Application (CARMA), is intended to 
replace CAT. However, the department has not yet established a date for 
completing CARMA.
    Thus, VA's efforts to implement an IT system that supports the 
Family Caregiver Program have been continuing with no end in sight. We 
have ongoing work to further evaluate the status and progress of the 
department's efforts to implement a system to support the Family 
Caregiver Program consistent with the VA MISSION Act requirements. 
Figure 1 provides a timeline of the various IT projects that VA has 
undertaken to support the program.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Critical Factors Underlying Successful IT Acquisitions

    Our prior work has determined that successfully overcoming IT 
acquisition challenges can best be achieved when critical success 
factors are applied.\14\ Specifically, we reported in 2011 on common 
factors critical to the success of IT acquisitions, based on seven 
agencies having each identified the acquisition that best achieved the 
agency's respective cost, schedule, scope, and performance goals. These 
factors remain relevant today and can serve as a model of best 
practices that agencies can apply to enhance the likelihood that the 
acquisition of an IT system such as CARMA will be successfully 
achieved.
---------------------------------------------------------------------------
    \14\ GAO-12-7.
---------------------------------------------------------------------------
    Among the agencies' seven IT investments, agency officials 
identified nine factors as having been critical to the success of three 
or more of the seven investments. These nine critical success factors 
are consistent with leading industry practices for IT acquisition. The 
factors are:

    <bullet>  Active engagement of program officials with stakeholders.
    <bullet>  Qualified and experienced program staff.
    <bullet>  Support of senior department and agency executives.
    <bullet>  Involvement of end users and stakeholders in the 
development of requirements.
    <bullet>  Participation of end users in testing system 
functionality prior to formal end user acceptance testing.
    <bullet>  Consistency and stability of government and contractor 
staff.
    <bullet>  Prioritization of requirements by program staff.
    <bullet>  Regular communication maintained between program 
officials and the prime contractor.
    <bullet>  Sufficient funding.

    Officials for all seven selected investments cited active 
engagement with program stakeholders-individuals or groups (including, 
in some cases, end users) with an interest in the success of the 
acquisition-as a critical factor to the success of those investments. 
Agency officials stated that stakeholders, among other things, reviewed 
contractor proposals during the procurement process, regularly attended 
program management office sponsored meetings, were working members of 
integrated project teams,\15\ and were notified of problems and 
concerns as soon as possible. Further, officials from two investments 
noted that actively engaging with stakeholders created transparency and 
trust, and increased the support from the stakeholders.
---------------------------------------------------------------------------
    \15\ The Office of Management and Budget defines an integrated 
project team as a multi-disciplinary team led by a project manager 
responsible and accountable for planning, budgeting, procurement, and 
life-cycle management of the investment to achieve its cost, schedule, 
and performance goals. Team skills include budgetary, financial, 
capital planning, procurement, user, program, architecture, earned 
value management, security, and other staff as appropriate.
---------------------------------------------------------------------------
    Additionally, officials for six of the seven selected investments 
indicated that the knowledge and skills of the program staff were 
critical to the success of the program. This included knowledge of 
acquisitions and procurement processes, monitoring of contracts, large-
scale organizational transformation, Agile software development 
concepts,\16\ and areas of program management such as earned value 
management and technical monitoring.
---------------------------------------------------------------------------
    \16\ Agile software development is not a set of tools or a single 
methodology, but a philosophy based on selected values, such as 
prioritizing customer satisfaction through early and continuous 
delivery of valuable software; delivering working software frequently, 
from every couple of weeks to every couple of months; and making 
working software the primary measure of progress.
---------------------------------------------------------------------------
    Finally, officials for five of the seven selected investments 
identified having the end users test and validate the system components 
prior to formal end user acceptance testing for deployment as critical 
to the success of their program. Similar to this factor, leading 
guidance recommends testing selected products and product components 
throughout the program life cycle.\17\ Testing of functionality by end 
users prior to acceptance demonstrates, earlier rather than later in 
the program life cycle, that the functionality will fulfill its 
intended use. If problems are found during this testing, programs are 
typically positioned to make changes that would be less costly and 
disruptive than ones made later in the life cycle.
---------------------------------------------------------------------------
    \17\ See, for example, Carnegie Mellon Software Engineering 
Institute, Capability Maturity Modelr Integration for Acquisition 
(CMMI-ACQ), Version 1.3 (November 2010).
---------------------------------------------------------------------------
    In conclusion, VA has invested considerable time in multiple 
efforts toward improving and replacing its IT system to better serve 
the Family Caregiver Program. However, even with these efforts, the 
department has not yet implemented a system and the program is not 
prepared for expansion. Going forward, it is important that VA take 
steps to improve its efforts to implement a replacement IT system for 
the Family Caregiver Program. In this regard, the department could 
benefit from applying critical success factors we previously reported 
as leading to successful federal IT acquisitions. These factors can 
serve as a model of best practices that the department can apply to 
enhance the likelihood that its effort to replace the IT system for the 
Family Caregiver Program will be successful.
    Chairs Lee and Brownley, Ranking Members Banks and Dunn, and 
Members of the Subcommittees, this completes my prepared statement. I 
would be pleased to respond to any questions that you may have.

GAO Contact and Staff Acknowledgments

    If you or your staffs have any questions about this testimony, 
please contact Carol C. Harris, Director, Information Technology 
Management Issues, at (202) 512-4456 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7c141d0e0e150f1f1f3c1b1d13521b130a52">[email&#160;protected]</a> Contact 
points for our Offices of Congressional Relations and Public Affairs 
may be found on the last page of this testimony statement. GAO staff 
who made key contributions to this testimony are Mark Bird (Assistant 
Director), Rebecca Eyler, Jacqueline Mai, Monica Perez-Nelson, Scott 
Pettis, and Jennifer Stavros-Turner (Analyst in Charge).
                             GAO HIGHLIGHTS
Why GAO Did This Study

    To provide greater support for caregivers of post-9/11 veterans, 
Congress and the President enacted legislation requiring VA to 
establish a program to assist caregivers with the rigors of caring for 
seriously injured veterans. In May 2011, the Veterans Health 
Administration (VHA), which operates VA's health care system, 
established the Family Caregiver Program at each of its VA medical 
centers across the United States. At that time, the department 
implemented an IT system, called CAT, to help support the program. 
Subsequently, the VA MISSION Act was enacted in June 2018, requiring VA 
to implement an IT system to fully support the Family Caregiver Program 
by October 1, 2018. Further, VA's Secretary is to certify the system by 
October 1, 2019.
    GAO was asked to discuss its September 2014 report that examined 
how VHA is implementing the Family Caregiver Program. In addition, the 
statement includes relevant information VA provided on its actions 
toward addressing GAO's prior recommendation. The statement also 
discusses critical success factors related to IT acquisitions as 
identified in GAO's prior work. The reports cited throughout this 
statement include detailed information on the scope and methodology of 
GAO's prior reviews.

What GAO Recommends

    GAO recommended in 2014 that VA expedite the process for 
identifying and implementing an IT system that would fully support the 
Family Caregiver Program. VA concurred with the recommendation and 
subsequently began taking steps to implement a replacement system. The 
recommendation remains open.

What GAO Found

    In September 2014, GAO reported on the Department of Veterans 
Affairs' (VA) Program of Comprehensive Assistance for Family Caregivers 
(Family Caregiver Program) and found that the program office had 
limitations with its information technology (IT) system-the Caregiver 
Application Tracker (CAT). Specifically, the program did not have ready 
access to workload data that would allow it to monitor the effects of 
the program on VA medical centers' resources. VA has initiated various 
projects since 2015 to implement a new system, but has not yet been 
successful in its efforts. (See figure.) Specifically, in July 2015 VA 
initiated a project to improve the reliability of CAT's data, called 
CAT Rescue. However, the department reported in January 2017 that it 
had identified numerous defects during system testing. The project 
ended in April 2018 before any new system capabilities were 
implemented. A companion project was initiated in September 2015 to 
develop the Caregivers Tool (CareT), a new system intended to replace 
CAT. The CareT project was expected to use improved data from CAT 
Rescue, while also adding new system capabilities. However, the user 
acceptance testing of CareT identified the need for the department to 
develop more system capabilities than originally planned. Further, VA 
reported that implementing a system by October 1, 2018, as specified in 
the Maintaining Internal Systems and Strengthening Integrated Outside 
Networks Act of 2018 (MISSION Act), was not feasible. Subsequently, VA 
terminated CareT in February 2019. The department initiated another 
project in March 2019 to implement a new system, the Caregiver Record 
Management Application (CARMA). GAO has ongoing work to evaluate the 
department's efforts to implement an IT system to support the Family 
Caregiver Program as required by the MISSION Act.
    FIGURE ONE HERE ALSO
    GAO's prior work has determined that successfully overcoming IT 
acquisition challenges can best be achieved when critical success 
factors are applied. These factors can serve as a model of best 
practices that VA could apply to enhance the likelihood that the 
acquisition of a replacement IT system for the Family Caregiver Program 
will be successfully achieved. Examples of these critical success 
factors include, maintaining active engagement of program officials 
with stakeholders, involving end users and stakeholders in the 
development of requirements, and ensuring participation of end users in 
testing system functionality prior to formal end user acceptance 
testing.

                                 <F-dash>
                           Wendell Ocasio, MD
    Chairwoman Brownley, Chair Lee, Ranking Member Dunn, Ranking Member 
Banks, and distinguished Members of the Subcommittees, thank you for 
this opportunity to testify today regarding VA's Caregiver Tool 
development. AbleVets LLC is a certified Service-Disabled Veteran Owned 
Small Business specializing in cybersecurity, agile engineering, 
analytics and technology enablement solutions for government.
    AbleVets was awarded the "Caregiver Tool Development" (CareT) 
contract (VA11816F10090010) on July 5, 2017. The delivery requirement 
for the 10-month Base Period was for AbleVets to, starting with an 
existing CareT application code base, implement a defined set of 
additional application requirements, migrate data from Caregiver 
Application Tracker (CAT) Rescue into the CareT product, test the final 
product, and deploy into production. The two 12-month Option Periods 
were focused solely on sustaining the CareT application once deployed 
into production.
    Ultimately, AbleVets was obligated $3.5M over a 23-month period, 
successfully completing and delivering the Base Period requirements. 
The government accepted all deliverables and issued a Satisfactory 
performance rating. We are currently performing the Optional Task 
"Transition Out" requirements prior to the contract close-out on May 
28, 2019. A more detailed summary of the work AbleVets performed is 
below:

    Upon award of the contract in July 2017, AbleVets was provided the 
existing CareT source code and supporting files that were developed 
under a previous contractor. We made modifications to this code to 
implement the additional requirements documented in the VA-approved 
requirements backlog.
    In August 2017, AbleVets began efforts to migrate data from VA's 
transitional Caregiver management tool called, CAT Rescue, into CareT. 
The CAT Rescue effort was performed by a separate contract/contractor. 
The CAT Rescue contract experienced delays and eventually in April 
2018, VA decided not to deploy CAT Rescue. Based on the new plan to 
transition VA's production caregiver tool called CAT directly to CareT, 
our data migration requirement shifted to migrate data from CAT 
instead. Because of this change, VA exercised a 4-month cost-
modification to the AbleVets CareT contract, resulting in the target 
date for completion of CareT being extended to September 4, 2018.
    In August 2018, the VA program manager issued a new requirement 
consisting of changes to a specific piece of functionality that had 
been completed under the previous CareT contract. This piece of 
functionality provided a `portal' interface to allow veterans and 
caregivers to complete the application online, which would then be 
transferred directly to the VA staff for adjudication. As VA directed 
the implementation of this new requirement in late August, they awarded 
AbleVets a 3-month cost-modification to AbleVets' CareT contract, 
providing time for us to complete this new requirement. The result of 
this contract modification was to extend the target date for completion 
of CareT to December 4, 2018.
    In late November 2018, upon completion of the new portal 
requirement, AbleVets had remaining data migration to complete. The 
migration effort had taken longer than estimated due to the need to 
come up to speed on the CAT database since the data model was 
significantly different than the initially planned CAT Rescue. VA and 
AbleVets agreed to a no-cost extension to allow time for the data 
migration to complete. At that time, the new target date for completion 
of CareT was moved to Feb 28, 2018.
    End to end user-acceptance testing began on the CareT application 
November 2018. Throughout this testing, AbleVets worked closely with VA 
to identify any issues identified by the testers and categorize them as 
application defects or issues representing additional requirements 
beyond the approved baseline. AbleVets resolved defects in parallel 
with continued user-acceptance testing.
    In mid-January 2019, AbleVets was informed by VA program management 
that they decided to pause further testing. During this pause, AbleVets 
continued to resolve open defects that had been identified to that 
point. By mid-February 2019, AbleVets had resolved all identified 
defects and completed the data migration efforts. At that point we were 
informed by VA that the Department had chosen not to proceed with 
deployment of CareT, and thus were not going to exercise the 
sustainment Optional Years. Instead, VA exercised the "Transition Out" 
Optional Task - a 90-day knowledge transfer and close-out period. We 
have successfully performed Transition Activities, have had all 
contract deliverables and invoices approved, and are on-target to end 
support on May 28, 2019.Thank you.

                                 <F-dash>
                              Ken Beecher
    Good morning to all members of the House Veterans Affairs Committee 
and Subcommittees. Thank you for the opportunity to discuss VA's 
Caregiver development contract using the Salesforce platform. My name 
is Ken Beecher and I'm a Director at Acumen Solutions with 
responsibility for the delivery and execution of our projects at the US 
Department of Veterans Affairs.
    Acumen Solutions is a global consulting firm that helps Fortune 
1000 companies and government agencies anticipate and respond to their 
customers' needs with innovative cloud-based IT solutions. We were 
founded in 1999, and our primary focus is to build mission-based 
systems that strengthen customer relationships. As an industry leader, 
we partner with some of the brightest innovators in cloud technology, 
such as Salesforce, to create exceptional solutions for our customers. 
It is our robust experience, innovative strategies, and a commitment to 
see our customers succeed that make us a trusted and proven leader in 
cloud consulting.
    Acumen Solutions is one of Salesforce's Global Strategic Partners, 
the highest tier in the Salesforce partner ecosystem. We have completed 
over 1,800 Salesforce projects across our commercial and public sector 
practices. We have worked in nearly all the Federal cabinet agencies - 
including the VA - and are proud of our outstanding customer 
satisfaction rating. In short: we pride ourselves in bringing value to 
our customers and those they serve.
    In September 2018, we were awarded a Blanket Purchase Agreement 
called VA Enterprise Case Management Solutions (VECMS). This vehicle 
provides the VA with easy access to Acumen Solutions' professional 
services to implement Salesforce's technology platform for any 
department within the VA. In March 2019, VA tasked Acumen Solutions 
with developing a Level of Effort for a Minimum Viable Product (MVP) 
for the Caregiver Record Management Application project (CARMA) under 
the VECMS contract.
    The Caregiver program is an important subset of the MISSION Act, 
which was passed to improve the VA's ability to deliver health care to 
our veterans; and CARMA is a subset of the Caregiver program.
    In April 2019, VA awarded Acumen Solutions the CARMA Phase 1 
Minimum Viable Product (MVP) Task Order in the amount of $3,841,491.19 
to perform implementation and integration services. The scope of the 
Phase 1 MVP is to replace the existing system, Caregiver Application 
Tool (CAT), used by the Caregiver Support Program (CSP) with an 
application built on the Salesforce platform. The new system will have 
improved functionality to process and manage CSP applications, allow 
for manual determination of eligibility, provide improved program 
monitoring and tracking, and capture call records and referrals by the 
Caregiver Support Line (CSL).
    We recognize the VA's pressing need to develop and build its 
Information Technology (IT) systems at less expense and with the 
nation's veterans at the center. Acumen Solutions is using the Agile 
SCRUM software development methodology to build the CARMA solution, 
which enables us to rapidly build Salesforce solutions using 
configuration while minimizing custom code. Furthermore, we employ a 
User Centered Design (UCD) methodology with close consultation with US 
Digital Services (USDS), meaning that we meet with users of the system 
to understand their needs and pain points, and then create artifacts 
such as prototypes and journey maps, which are then shared with the 
configuration team. Our configuration team then works in a two week 
sprint, ending with a demonstration of what was built for immediate 
feedback. To mitigate risk, we provide VA end-users access to a test 
environment with the latest application code, so they can interact with 
and test the functionality independently. Each sprint builds on the 
previous one until we reach a completed solution. Our methodology 
lowers the risk to the VA and to taxpayers by developing pieces of the 
overall solution in bite size increments. In addition, we work with the 
users throughout to constantly confirm that each stage of development 
meets their acceptance criteria.
    Our success to date in configuring Salesforce and replacing legacy 
systems are a result of collaboration with the VA business office and 
its associated product owners, USDS, VA Digital Transformation Center 
(DTC), OI&T, the Technology Acquisition Center (TAC), and the 
Salesforce Program and Business Architects working at the VA.
    Acumen Solutions is proud to partner with the VA and Salesforce to 
provide an innovative, effective solution to assist the VA on behalf of 
our nation's veterans and their caregivers.
    Thank you. I look forward to your questions.

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
